<html>
<title> - VIEWS OF THE NIST NOBEL LAUREATES ON SCIENCE POLICY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        VIEWS OF THE NIST NOBEL
                      LAUREATES ON SCIENCE POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2006

                               __________

                           Serial No. 109-51

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
27-588                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina
WAYNE T. GILCHREST, Maryland         MARK UDALL, Colorado
TIMOTHY V. JOHNSON, Illinois         LINCOLN DAVIS, Tennessee
DAVE G. REICHERT, Washington         BRIAN BAIRD, Washington
JOHN J.H. ``JOE'' SCHWARZ, Michigan  JIM MATHESON, Utah
MARIO DIAZ-BALART, Florida               
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                AMY CARROLL Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
                 CHAD ENGLISH Professional Staff Member
                 DEVIN BRYANT Majority Staff Assistant


                            C O N T E N T S

                              May 24, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     6
    Written Statement............................................     7

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     8
    Written Statement............................................     9

Statement by Representative Mark Udall, Member, Subcommittee on 
  Environment, Technology, and Standards, Committee on Science, 
  U.S. House of Representatives..................................    33
    Written Statement............................................    33

                               Witnesses:

Dr. William D. Phillips, Scientist, Physics Division, NIST 
  Laboratory; NIST Fellow; 1997 Nobel Prize Winner for Physics
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    16

Dr. Eric A. Cornell, Senior Scientist, NIST Laboratory; Fellow, 
  JILA; 2001 Nobel Prize Winner for Physics
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    21

Dr. John ``Jan'' L. Hall, Scientist Emeritus, NIST Laboratory; 
  Fellow, JILA; 2005 Nobel Prize Winner for Physics
    Oral Statement...............................................    22
    Written Statement............................................    24

Discussion
  Gravitational Red Shift........................................    27
  Education......................................................    28
  Use of Previous Research.......................................    29
  Gravitational Red Shift (cont.)................................    31
  NIST Program Decline...........................................    31
  Education (cont.)..............................................    33
  K-12 Education.................................................    34
  NIST's Merits and Facilities...................................    36
  American Research Position.....................................    38
  Higher Education and Jobs in Industrial Research...............    39
  American Innovation and Education..............................    40
  Career Inspiration.............................................    42
  K-12 Education, Informed Voters, and the Federal Government....    43
  American Ingenuity and Investment..............................    45


          VIEWS OF THE NIST NOBEL LAUREATES ON SCIENCE POLICY

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:45 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        Views of the NIST Nobel

                      Laureates on Science Policy

                        wednesday, may 24, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday May 24, 2006, at 9:30 a.m., the Subcommittee on 
Environment, Technology, and Standards of the House Committee on 
Science will hold a hearing to learn the views of the Nobel Prize 
winners from the National Institute of Standards and Technology (NIST) 
on science policy.

Witnesses

Dr. William D. Phillips is a scientist in the physics division at the 
NIST laboratory in Gaithersburg, Maryland. He won the 1997 Nobel Prize 
for physics.

Dr. Eric Cornell is a senior scientist at the NIST laboratory in 
Boulder, Colorado, and a fellow at JILA, the joint institute between 
NIST and the University of Colorado. He won the 2001 Nobel Prize for 
physics.

Dr. John (Jan) Hall is a scientist emeritus at the NIST laboratory in 
Boulder, Colorado and a fellow at JILA, the joint institute between 
NIST and the University of Colorado. He won the 2005 Nobel Prize for 
physics.

Overarching Questions

    The hearing will address these overarching questions:

        1.  Why has NIST been so successful at cultivating Nobel Prize 
        winners?

        2.  What are the implications of the Nobel Prize-winning 
        research at NIST and how can that work get used outside of 
        NIST?

        3.  What steps are most necessary to improve U.S. performance 
        in math, science and engineering, and U.S. competitiveness?

Overview of NIST

    The National Institute of Standards and Technology, created by 
Congress in 1901, is the Nation's oldest federal laboratory. NIST's 
mission is to promote U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology in ways that 
enhance economic security and improve our quality of life. NIST has two 
laboratory campuses, one in Gaithersburg, MD, and the other in Boulder, 
CO, and a joint institute for physics research with the University of 
Colorado at Boulder, known as JILA.
    The NIST's research programs are carried out through eight 
laboratories:

        <bullet>  Building and Fire Research Laboratory

        <bullet>  Chemical Sciences and Technology Laboratory

        <bullet>  Electronics and Electrical Engineering Laboratory

        <bullet>  Information Technology Laboratory

        <bullet>  Manufacturing Engineering Laboratory

        <bullet>  Materials Science and Engineering Laboratory

        <bullet>  Physics Laboratory

        <bullet>  Technology Services Laboratory.

    In addition, NIST houses major facilities that play a critical role 
in measurement and standards research, as well as supporting technology 
development for future industries. These facilities include the atomic 
clock, the National Center for Neutron Research, and the National 
Nanotechnology and Nanometrology Facility.

NIST's FY 2007 Budget Request

    NIST is one of the three agencies included in the President's 
American Competitiveness Initiative. (The other two are the National 
Science Foundation and the Department of Energy Office of Science.) The 
Initiative, announced in the State of the Union message and included in 
the Fiscal Year (FY) 2007 budget, calls for a doubling of the combined 
budgets of the three agencies over 10 years. (The Initiative does not 
include NIST's extramural research programs--the Manufacturing 
Extension Partnership program and the Advanced Technology Program.)
    For details on the NIST budget, see the chart below.
    The proposed increase in laboratory programs for FY 2007 would fund 
major upgrades and enhancements of NIST's two national research 
facilities in Gaithersburg, MD: the NIST Center for Neutron Research 
and the Center for Nanoscale Research and Technology. The budget 
request would also fund expansion of NIST's existing presence at the 
National Synchrotron Light Source at Brookhaven National Laboratory. 
The request for NIST will increase the ability of U.S. researchers to 
develop, characterize, and manufacture new materials. In addition, the 
proposed budget would increase NIST laboratory and technical programs 
directed at solving measurement and other technical problems in energy, 
medical technology, manufacturing, homeland security, and public 
safety.

NIST Appropriations and Reauthorization

    In May 2005, the House passed H.R. 250, the Manufacturing 
Technology Competitiveness Act, which included authorization language 
and funding levels for NIST, using the President's FY 2006 request of 
$426 million as a baseline. The Senate Commerce Committee recently 
reported out S. 2802, a bill that also includes a NIST authorization.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


How NIST Supports Promising Scientists

    There are several means available to NIST to reward or encourage 
scientists who are pursuing promising avenues of research: the 
Competence program, the Presidential Early Career Award for Scientists 
and Engineers (PECASE), and increasing support for individual 
scientists from NIST's base funding. Each of NIST's Nobel laureates 
benefited from one or all of these programs.
    The NIST Competence program was established to provide five years 
of funding for high-priority research by NIST researchers. The focus is 
to develop new technical competence required to support national 
measurement science or standards. If, at the end of the five years, the 
research has been successful, the Competence funding can be replaced 
with more permanent program funding to continue the research. For 
example in 1992, John Hall was awarded $340,000 per year for five years 
in Competence funding to pursue research ``Beyond Quantum Limits,'' 
funding that he used in part to hire Eric Cornell to create a Bose-
Einstein Condensate (BEC).
    The NIST Director can nominate NIST scientists for PECASE, which 
was established in 1996 to support the extraordinary achievements of 
young scientists and engineers in the Federal Government. Dr. Cornell 
received this award in 1996. NIST and the Department of Commerce also 
have some internal awards that are made in recognition of outstanding 
service by their employees.
    Finally, the NIST Director can support talented scientists with 
additional funding from the NIST laboratory budget. For example, in 
recognition of Dr. Cornell's achievement of BEC in 1995, the NIST 
Director gave him an additional $250,000 in base lab funding. Dr. 
Cornell has stated that this research funding, received without making 
a request or proposal, was one of the reasons he decided to stay at 
NIST, despite personally lucrative offers elsewhere.

Nobel Prize-winning work at NIST

    Two of the NIST Nobel laureates won their Prize for work related to 
low-temperature physics. NIST scientists conduct low-temperature 
physics research because understanding the properties of atoms and 
materials at low temperatures can improve the science of measurement, 
which is critical to improving the competitiveness of U.S. industry.
    One application of low-temperature physics is technology to improve 
the accuracy of atomic clocks. By cooling atoms of cesium, scientists 
have made atomic clocks that are a billion times more accurate than an 
ordinary wristwatch. Highly accurate clocks are essential to navigation 
instruments and other devices that use the Global Positioning System 
(GPS), because the GPS depends on atomic clocks that circle the earth 
in satellites. By comparing time information from several satellites, 
GPS receivers in cars, airplanes, or hand-held instruments can 
determine their location on earth with an accuracy of just a few 
meters. The more precise, accurate, and better synchronized the clocks, 
the more accurate the associated locational data becomes.

    Dr. William D. Phillips' Nobel Prize, which he shared with Dr. 
Steven Chu and Dr. Claude Cohen-Tannoudi in 1997, was awarded for the 
development of a technique called ``laser trapping and cooling.'' This 
technique allows researchers to use lasers as pincers to immobilize 
individual or small groups of atoms.

    Dr. Eric Cornell won his Nobel Prize, which he shared with Dr. Carl 
Wieman, for creating a Bose-Einstein Condensate (BEC), a previously 
unobserved state of matter, predicted in 1920s by Albert Einstein and 
an Indian colleague. In the BEC state, a gas, cooled to super-low 
temperatures, behaves like a superfluid--neither a gas nor a liquid nor 
a solid. Cornell and Wieman used the laser cooling technique pioneered 
by Dr. Phillips, together with another technique.

    Dr. Jan Hall won his Nobel Prize, which he shared with Theodor 
Hansch, for his contributions to laser-based precision spectroscopy, 
including the development of the ``optical frequency comb'' technique. 
The optical frequency comb is a new measuring method for the frequency 
of light, and is critical for the solution to the problem of 
measurements, including the standard definition of the meter. Optical 
frequency combs are now commercially available.

Witness Questions

    The witnesses were asked to briefly describe the research that led 
them to the Nobel prize-winning discoveries, and answer the following 
questions:

        1.  Describe the role that NIST plays in your field of science.

        2.  Describe the steps that you had to take from the 
        development of the initial scientific concepts through to the 
        experiments for which you won the Nobel Prize. What are the 
        applications or potential applications of your discoveries and 
        what steps have been or will be taken to translate this new 
        science into technology and other applications?

        3.  What do you believe are the most important steps the 
        Federal Government should take to improve the competitiveness 
        of U.S. scientific research?
    Chairman Ehlers. Good morning. This hearing will come to 
order.
    It is a real pleasure to conduct this hearing today. As I 
told our witnesses, this is likely to be a love fest rather 
than an interrogation, and the brief conversation I had with 
them before the meeting made me think perhaps I should resign 
my position and get back into research. You folks have all of 
the fun.
    But at any rate, if I weren't here, you probably wouldn't 
have as much money to do your research, either. So to each his 
own. We all contribute in our own way to the enterprise of 
science.
    Welcome to today's hearing entitled ``Views of the NIST 
Nobel Laureates on Science Policy.'' It is my great privilege 
to chair the Science Subcommittee that oversees the National 
Institute of Standards and Technology, also known as NIST. This 
gives me the opportunity to hold hearings such as this one, 
where we can highlight some of the best science being done in 
the world today by U.S. researchers at a humble federal science 
agency. Although if they get more Nobel Prize winners, they may 
no longer be humble. NIST has become the world leader in 
standards by employing superb scientists who do excellent work. 
Nothing more clearly demonstrates the phenomenal quality of the 
Agency's work than the three Nobel Laureates NIST has produced 
in less than 10 years, a truly remarkable accomplishment.
    Having been a physicist myself, I have some understanding 
of how difficult your job can be.
    I might mention this as an entirely Pavlovian operation in 
the Congress: the bells ring, we vote. In this case, we do not 
vote. We are just starting the--a sequence, and the Prime 
Minister of Israel will be addressing us later. So we can be 
assured of an uninterrupted hearing today.
    Continuing, having been a physicist myself, I have some 
understanding of how difficult your job can be: science is hard 
work. I think the public understands in an abstract way that if 
you win the Nobel Prize, you must be very smart. That is one of 
the prerequisites. But what people frequently do not think 
about and do not realize or appreciate is the incredible amount 
of time, effort, and often frustration that goes into a 
successful, or even unsuccessful, scientific experiment. 
Optical and low-temperature physics, in particular, are fields 
where everything has to work perfectly. The margins for error 
are very tiny, the precision required is sublime, and 
experiments that work well in theory take months or years, time 
that is more often than not fraught with setbacks and 
frustrations, to produce a result in the laboratory. It takes 
true dedication and tenacity to push back the frontiers of 
science the way you have, and I think everyone here stands in 
awe of your achievements.
    We are not here today just to learn about your research. In 
1945 Vannevar Bush, Director of the Office of Scientific 
Research and Development, laid out a bold new vision for 
science in this country in the book ``Science: the Endless 
Frontier.'' The publication of this historic document resulted 
in the creation of the National Science Foundation and launched 
a new era in U.S. scientific research. In 1998, I decided that 
the book by Vannevar Bush, although excellent, is somewhat 
outdated, and I worked together with House Speaker Newt 
Gingrich and Science Committee Chairman Jim Sensenbrenner and 
re-released ``Unlocking the Future: Towards a New Science 
Policy,'' a document that I had worked for two years with the 
aid of Sharon Hayes, a document that was intended to guide the 
development of a long-term science and technology policy for 
the United States. We did not claim that it was a new science 
policy in itself, but we tried to point the direction to and 
the need for a good launch from science and technology policy 
for the United States.
    These policy documents are important, because they help us 
take a long view of the critical role of science in our 
society, and they force us to organize and update our science 
priorities. Now we are, once again, due for an update, and you 
are helping in the beginning of that update.
    As leading scientists in your fields, we look forward to 
hearing your perspectives. You are products of the U.S. 
education system and have benefited from federal support for 
scientific research. The Science Committee is interested in 
learning your opinions about how the United States can improve 
both its education and its research systems so that we will 
continue to be at the cutting edge of science and winning Nobel 
Prizes in the future. Now I might add, the goal is not so much 
to win prizes, per se, but they symbolize the progress that we, 
as a nation, make.
    I am pleased today to welcome Dr. William Phillips, who has 
been here several times before since receiving his Nobel Prize, 
Dr. Eric Cornell from Boulder and the JILA arm of NIST, and my 
former colleague, Dr. Jan Hall, also from JILA whom I worked 
with years ago, and I spent a year and later three summers at 
JILA--a wonderful institution, wonderful people, and good 
research. It is my pleasure to welcome all three Nobel 
Laureates in Physics from NIST as our witnesses today.
    I now recognize Mr. Wu for an opening statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good morning, and welcome to today's hearing, entitled ``Views of 
the NIST Nobel Laureates on Science Policy.'' It is my great privilege 
to chair the Science Subcommittee that oversees the National Institute 
of Standards and Technology, also known as NIST. This gives me the 
opportunity to hold hearings such as this one, where we can highlight 
some of the best science being done in the world today by U.S. 
researchers at a humble federal science agency. NIST has become the 
world leader in standards by employing superb scientists who do 
excellent work; nothing more clearly demonstrates the phenomenal 
quality of the Agency's work than the three Nobel laureates NIST has 
produced in less than ten years, a truly remarkable accomplishment.
    Having been a physicist myself, I have some understanding of how 
difficult your job can be: science is hard work. I think the public 
understands in an abstract way that if you win the Nobel Prize you must 
be very smart. But what people frequently do not think about and do not 
appreciate is the incredible amount of time, effort, and often 
frustration that goes into a successful, or even unsuccessful, 
scientific experiment. Optical and low-temperature physics in 
particular are fields where everything has to work perfectly, the 
margins for error are very tiny, the precision required is sublime, and 
experiments that work well in theory take months or years--time that is 
more often than not fraught with setbacks and frustrations--to produce 
a result in the laboratory. It takes true dedication and tenacity to 
push back the frontiers of science the way you have, and I think 
everyone here stands in awe of your achievements.
    We are not here today just to learn about your research. In 1945 
Vannevar Bush, Director of the Office of Scientific Research and 
Development, laid out a bold new vision for science in this country in 
the book ``Science: the Endless Frontier.'' The publication of this 
historic document resulted in the creation of the National Science 
Foundation, and launched a new era in U.S. scientific research. In 
1998, I, together with House Speaker Newt Gingrich, released 
``Unlocking the Future: Towards a New Science Policy,'' a document that 
was intended to guide the development of a long-term science and 
technology policy for the United States. These policy documents are 
important because they help us take a long view of the critical role of 
science in our society and they force us to organize and update our 
science priorities. Now we are once again due for an update.
    As leading scientists in your fields, we look forward to hearing 
your perspectives. You are products of the U.S. education system and 
have benefited from federal support for scientific research. The 
Science Committee is interested in learning your opinions about how the 
U.S. can improve its education and research systems so that we will 
continue to be at the cutting edge of science and winning Nobel Prizes 
in the future.
    I am pleased to welcome Dr. William Phillips, Dr. Eric Cornell, and 
my former colleague Dr. Jan Hall, the three Nobel laureates in physics 
from NIST as our witnesses today.

    Mr. Wu. Thank you, Mr. Chairman, for holding this hearing. 
And I would like to take this opportunity to welcome everyone. 
And I want to congratulate the NIST Nobel Prize winners before 
us today.
    The Chairman was a scientist, and I was just a science 
wannabe, or a scientist wannabe, but had I known when I bailed 
out on medical school, or took an extended leave of absence 
from medical school 25 years ago, that 25 years later the most 
important thing that I would be doing is making sure that our 
education and research functions were funded. Well, who knows? 
I could have been a doctor.
    But I want to take just a couple of minutes to make two 
points.
    You all before us today are outstanding in your fields. And 
it is my impression that we have many, many outstanding 
researchers at NIST. NIST's work in metrology and standards has 
put at the forefront of many fields in scientific research, and 
I wouldn't be surprised if Dr. Debbie Jin, the 2002 McArthur 
Genius Grant winner, is a Nobel Prize recipient in the near 
future. In reading through these summaries about your work, I 
was struck by how this work represents a strong commitment to 
NIST in cutting-edge research. It is a tribute to the vision 
and the foresight of past NIST directors and managers.
    Second, I welcome the opportunity to interact and to 
question you all about our support for research and for 
education. I am especially interested in the role of federal 
support for scientific research and the concerns that we 
sometimes have about losing our research edge, whether it was 
two decades ago to the Japanese or whether it is today to, 
potentially, some other countries.
    And also, I am deeply concerned about our application of 
resources to education in all its forms, whether it is graduate 
education, undergraduate education, or K-12 education and would 
be very interested in your perspective and views on those 
topics, and especially on a comparative basis between us and 
other countries.
    And so I intend to use today's opportunity to hear about 
your opinions and recommendations. And again, congratulations 
and welcome to the Committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    I want to welcome everyone to this morning's hearing and I want to 
congratulate the NIST Nobel prize winners before us today.
    I want to take a few minutes to make two points. While the 
researchers before us today are outstanding in their fields, it is my 
experience that all the researchers at NIST are first rate.
    NIST's work in metrology and standards has put the agency at the 
forefront of many fields of scientific research. I wouldn't be 
surprised if Dr. Debbie Jin, the 2002 MacArthur genius grant winner, is 
named NIST's fourth Nobel Prize recipient.
    In reading through the summaries of these three individual's work, 
I was struck by how their work represents a forty year commitment by 
NIST to cutting-edge research in related fields. This is a tribute to 
the vision and foresight of past NIST directors.
    I welcome the opportunity to learn about our panelists' research 
efforts and their potential impact. However, I am especially interested 
in their thoughts on federal support for scientific research.
    We hear many reports that the U.S. is losing its research edge and 
that China, India and Mexico are outpacing us in the graduation of 
scientists and engineers.
    There has also been great concern that the quality of our K-12 
science education is putting us behind other countries. So I intend to 
use today's opportunity to ask them about their opinions and 
recommendations on these topics as well.
    Again, my congratulations to all our witnesses on their 
accomplishments.

    Chairman Ehlers. Thank you, Mr. Wu.
    I mentioned earlier the little pamphlet we produced some 
years ago, or booklet, ``Unlocking the Future: Towards a New 
Science Policy.'' My aid, Amy, was good enough to loan me her 
copy so I could show you. It was an immense amount of work. 
Science policy is an immense amount of work and not nearly as 
rewarding as research. But it is very essential to the future 
of this nation, and I think we have fallen down in not paying 
attention to science policy during the 50 years between 
Vannevar Bush's work and this document, and I would hope we 
take it more seriously in the future.
    Having said that, if there are any other Members who wish 
to submit additional opening statements, those statements will 
be added to the record. Without objection, so ordered.
    At this time, I would like to introduce our witnesses. 
First of all, Dr. William Phillips, winner of the 1997 Nobel 
Prize for Physics, a very fine physicist. I happen to have a 
personal connection to all three. My connection with Dr. 
Phillips is that one of his graduate students who worked on his 
prize-winning research is now teaching at Calvin College in 
Grand Rapids, Michigan, not only my hometown, but also my home 
institution where I taught for many years and helped develop 
the department and the equipment base that your student is 
using.
    I was hoping to recognize Dr.--pardon me, Congressman 
Udall, who wanted to be here to introduce the next two 
witnesses, because they are from his district, but 
unfortunately, he has been tied up in a meeting. But I am 
pleased to also introduce Dr. Cornell from the Joint Institute 
for Laboratory Astrophysics, which is now just called NIST--
pardon me, JILA, which is partly supported by NIST. And Dr. 
Cornell is a staff member of the National Institute of 
Standards and Technology.
    Also, Dr. Hall, who was very active when I spent my time in 
JILA years ago, but I hardly ever saw him, because he has a 
unique habit of hiding behind a desk, which is covered with 
six-foot stacks of paper, and so it is very hard to see him, 
because you really have to make a concerted effort. But that is 
good planning. I have adopted that technique partially myself 
to intimidate visitors to the office. But both have done very, 
very good work in the case of Dr. Hall for many, many years at 
JILA. He was outstanding when I was there, and he has continued 
that since.
    Dr. Cornell is a junior member here, but did a very, very 
important experiment on Bose-Einstein condensates. It is kind 
of neat to do an experiment that shows that Bose and Einstein 
were both right, almost a century ago, wasn't it, when they 
worked for NIST.
    So we are pleased to have all of you here.
    As I assume the witnesses have been told, your spoken 
testimony is limited to five minutes each, and after that, we 
would take turns in rotation asking five minutes worth of 
questions of you. We are not. In view of the nature of the 
panel and the time we have and the lack of other Members here, 
we will let you exceed the five minutes, if you wish.
    We will start by hearing the testimony of Dr. Phillips.

   STATEMENT OF DR. WILLIAM D. PHILLIPS, SCIENTIST, PHYSICS 
DIVISION, NIST LABORATORY; NIST FELLOW; 1997 NOBEL PRIZE WINNER 
                          FOR PHYSICS

    Dr. Phillips. Thank you, Chairman Ehlers and Members of the 
Subcommittee. It is a great honor to be here, and it is a 
pleasure to be with Eric Cornell and Jan Hall who are friends 
and colleagues in government service and distinguished 
scientists whose work has profoundly influenced my own.
    For more than 27 years at NIST, I had been cooling gases of 
atoms with laser light. I was not hired to do this, but because 
cold slow atoms could make better atomic clocks, NIST 
management encouraged me to pursue my crazy idea as a sideline 
to my main job. Ten years later, laser cooling was my main job.
    We made atoms as cold as a gas had ever been, but things 
didn't behave quite as expected. Driven by our scientific 
curiosity, we pursued the discrepancies rather than colder 
temperatures and discovered, much to everyone's surprise, that 
our gas could be colder than anyone had thought possible. By 
1995, we had gotten under a millionth of a degree above 
absolute zero, the coldest anything had ever been.
    This exciting development illustrates an important lesson 
about mission-driven research. Had we not taken a detour into 
basic understanding of the underlying physics, we never would 
have reached our goal.
    Today, laser-cooled atoms define time. At the naval 
observatory, they keep time for our military. They synchronize 
GPS, which guides everything from military jeeps to commercial 
aircraft. NIST's standard clock is accurate to less than one 
second in 60 million years. We like to call this ``close enough 
for government work.''
    And that is just the start.
    Jan Hall's work promises even better clocks. But most of 
laser cooling's applications were undreamed of at the outset, 
something that is typical of basic research. One of the most 
exciting applications is quantum information. Eric Cornell, who 
cooled atoms 1,000 times colder than our 1995 record, will say 
more about this. But quantum computation and communication has 
code-breaking potential and guaranteed privacy with crucial 
national security implications.
    Secure quantum communication is here and now. Quantum 
computing needs a lot more basic research and technology 
development, but NIST is leading the way.
    What role does NIST play in my work and in my field 
generally?
    To put it succinctly, I would not have done any of this 
work had I not been at NIST, and NIST is the field's world 
leader. The mission of NIST is measurement science, and so I 
pursued laser cooling. The mission was the motivation, but the 
NIST environment made the research flourish. NIST encourages us 
to take a long view of our mission and to pursue targets of 
scientific opportunity. NIST didn't just tolerate my sideline 
research; they encouraged it and supported it.
    But the most important feature of NIST's environment is the 
quality of the people. People often ask why am I still at NIST 
when I could make a lot more money some place else, and the 
answer is my colleagues. NIST has assembled some of the best 
scientists in the world, and it has maintained them in an 
atmosphere that nurtures the best possible basic research. The 
payoff has been obvious: three Nobel Prizes in eight years, 
world leadership in measurement science, lines of research with 
applications in commerce, science, industry, and the military.
    You have asked what the Federal Government can do to 
improve the competitiveness of U.S. research.
    First, support basic research strongly, especially in the 
physical sciences and in universities and in government 
laboratories. Basic research created, for example, the 
electronics industry where innovation keeps America's position 
strong in spite of cheaper production overseas. A landmark was 
the invention of the transistor at Bell Labs. But today, that 
tradition of far-sighted industrial research has virtually 
disappeared. Where industry has stepped back, government must 
step up. And it is vital that--what should I do? Just go on?
    Chairman Ehlers. Just--it will take just a second.
    Dr. Phillips. Okay. Thank you.
    And it is vital that mission-focused government 
laboratories like NIST do not adopt this same short-term 
thinking that infects industry. NIST has always recognized the 
importance of strong investment in basic research for the long 
haul, and I believe this is the correct path for all mission 
agencies, civilian and military. The recent legislative and 
executive initiatives to dramatically increase basic research 
in physical sciences are right on target. America's economic 
advantage depends on her research advantage. Unless we invest 
in basic research in good times and in bad, in war and in 
peace, we risk being unable to compete in the world market, and 
we risk being unprepared to respond to threats.
    A great strength of U.S. science is the diversity of 
funding: the NSF, NASA, DOE, DARPA, ONR, AFOSR, ARO all provide 
opportunities for basic research funding with different 
cultures, styles, and missions. We should resist attempts to 
homogenize the approach to funding. We should maintain all of 
these opportunities, each with their own approaches, and each 
with a strong basic research component. We need the diversity. 
I don't want every funding agency to be like DARPA, and I don't 
want every funding agency to be like the NSF. That diversity 
that we have is one of the most important things making our 
nation's research great.
    Finally, the American research environment is crucial. It 
is a magnet drawing the best scientific minds from around the 
world. Unfortunately, legitimate concerns about national 
security may have the unintended consequence of isolating the 
United States scientifically. Many foreign scientists now see 
the United States as a less friendly place scientifically. At 
the same time, foreign-born workers fill close to half of our 
science and technology jobs. We must improve the educational 
pipeline supplying Americans for our high-tech needs, and we 
must welcome the best of the foreign scientists as students, 
collaborators, and new Americans. If we do not, we risk putting 
ourselves out of the main marketplace of ideas and out of the 
game.
    I want the United States to be the world leader in making 
the great discoveries of the 21st century and in claiming the 
fruits of those discoveries, and I know that you do as well.
    Thank you very much for your attention. Thank you 
especially for your concern about this issue. I will be happy 
to answer questions.
    [The prepared statement of Dr. Phillips follows:]

               Prepared Statement of William D. Phillips

Mr. Chairman and Members of the Committee:

    As a Federal Employee and, like each of you, a public servant, it 
is a great pleasure for me to appear before you. And it is an honor to 
appear along with Eric Cornell and Jan Hall, friends and colleagues in 
government service, and distinguished scientists whose work has had 
such a profound influence on my own research. I have worked for the 
National Institute of Standards and Technology (formerly the National 
Bureau of Standards) for more than 27 years. I was hired to make 
precision electrical measurements--an activity directed toward the NIST 
missions of providing the high quality measurement services needed for 
modern industry and science and of exploring the frontiers of knowledge 
relating to measurement science. At the same time I was encouraged by 
the management of NIST to pursue, as a side interest, topics in laser 
physics that could benefit NIST's mission, broadly interpreted.
    In my spare time, with scrounged equipment and funds, I 
investigated a seemingly crazy idea--that you could cool something by 
shining laser light on it. The ``something'' I wanted to cool was a gas 
of atoms, and the motivation was to make the atoms move more slowly, 
since colder simply means that the atoms are moving more slowly. Why? 
Because if the atoms were moving more slowly, we could measure them 
better, and better measurement is one of the key services we at NIST 
deliver. In particular, I wanted to make better atomic clocks--to make 
our best timekeepers even better.
    How could laser light cool a gas of atoms? The idea was to use the 
light to push on the atoms in such as way as to make them slow down. Or 
at least that was the dream that I pursued, in odd moments, as a young 
physicist in 1978. I was inspired by the fact that earlier that year, 
Dave Wineland and his colleagues at the NIST laboratories in Boulder, 
CO, had done just that--laser cooling ions, electrically charged atoms 
that were easier to hold onto. It was going to be harder to do that 
with neutral atoms, which, lacking an electric charge, were harder to 
control and confine. And I was eager to take on the challenge.
    With the strong support of NIST and of the ONR, by 1988 laser 
cooling had become my sole assignment. The international scene had 
changed considerably. In 1978 a lone group in the Soviet Union was our 
only competitor in laser cooling of neutral atoms. By 1988 groups 
across the U.S. and around the world had joined in the fun. At NIST, we 
had first learned how to slow down beams of atoms from well over the 
speed of sound to human running speeds. We learned to trap the atoms, 
suspending them in vacuum using first magnetic fields and then lasers. 
Things were going well. We were learning to use the tools of laser and 
magnetic manipulation of atoms to make them do what we wanted. But 
there were problems. Things were not behaving exactly as our 
calculations had predicted. We tried modifying the theory in reasonable 
ways, but nothing worked.
    Physicists are, by nature and by training, driven to make sense out 
of what we see in the world and in the laboratory. And things were not 
making sense. Things were working well enough, and we were well on our 
roadmap to slow our atoms down, but not everything was adding up. And 
we could not let it rest. We turned our attention to figuring out what 
was going wrong. Or, more precisely, what was going on. And, after 
something like a year of investigation, we learned, much to our 
surprise, and to the surprise of colleagues around the world, that the 
strange behavior was tied to the fact that we were cooling our atoms to 
temperatures far lower than we or anyone had thought possible. We were 
astounded! Experiments rarely work better than expected, and, in trying 
to get temperatures as low as possible, we had gotten to temperatures a 
lot lower than thought possible.
    The results were so unexpected that we confirmed them four 
different ways before we reported them publicly. After other 
laboratories had reproduced our results and theorists had deduced a new 
mechanism for laser cooling, we eventually (in 1995) reached 
temperatures more than a hundred times lower than had been thought 
possible. We achieved temperatures lower than millionth of a degree 
about absolute zero--at that time, the coldest temperature ever 
achieved. It was one of the most exciting and satisfying experiences a 
scientist could hope for, and it illustrates an important feature about 
mission driven science and basic research. We had set out to laser cool 
a gas of atoms in order to make better clocks. We were sidetracked by 
basic scientific questions about the nature of the interaction of light 
and matter, and by studying those questions, we learned new and 
unexpected things about light and matter. And although we did not know 
at the outset how important it would be, that knowledge, gained through 
our digression into basic research, was what made it possible to 
achieve our mission goal of making a better clock.
    Today, clocks using laser cooled atoms provide the official 
definition of the second, the unit of time. Clocks based on this 
principle are in use at the US Naval Observatory, and laser cooled 
clocks provide the accurate timekeeping needed for modern military and 
commercial needs. The Global Positioning System or GPS, which guides 
everything from jeeps in the desert to commercial aircraft to private 
cars, is synchronized using laser cooled clocks. The best of these 
clocks is NIST's F-1 cesium fountain clock with a fractional inaccuracy 
of better than 5x10<SUP>-</SUP><SUP>16</SUP>, or less than one second 
in 60 million years. At NIST, this is known as ``close enough for 
government work.''
    So, laser cooling is already in use for military and commercial 
purposes. But this has only been the beginning of the story. A still 
more advanced generation of clocks using both laser cooled ions and 
laser cooled neutral atoms is under development and these clocks have 
achieved performance that already promises to be ten times better than 
the best current clocks. But most of the things that laser cooling is 
now used for were completely unanticipated when we began our studies. 
(This is a common feature of the fruits of basic research--the best of 
those fruits are often evident only well after the inception of the 
work.) One of the most exciting applications of ultra-cold atoms is in 
the emerging field of quantum information. Here, single atoms or single 
ions are used to store information in the form of quantum bits or 
``qubits.'' Computation and communication of information with qubits 
can perform feats impossible with ordinary computers or ordinary secure 
communications systems. Eric Cornell will say more about this in his 
remarks. Among the most important applications of quantum information 
are code breaking and eavesdropping-proof communications. These 
applications are crucial to issues of national security, and NIST is 
pursuing them. Quantum communication is now a reality, with a testbed 
at NIST producing quantum cryptographic code at live-video rates. 
Quantum computers are still a distant dream, with a great deal of both 
basic research and technological advancement needed before they are a 
reality.
    The Committee has asked for a discussion of the role that NIST 
plays in my work and my field generally. To put it succinctly, I do not 
believe that I would have done any of this work had I not been at NIST. 
When I was a young postdoctoral fellow at MIT, I had lots of ideas 
about where to take my future research. One of those ideas was laser 
cooling. But had I gone to a university or to an industrial research 
laboratory, I would have pursued other goals. It was because the 
mission of NIST involves measurement and improving measurement science 
that I decided to pursue laser cooling. In this case, the application 
provided the motivation. But it was the environment of NIST that made 
the research flourish. NIST encourages its scientists to think 
``outside the box,'' to take a long and broad view of our mission, and 
to pursue targets of scientific opportunity at the same time that we 
are attending to the problems at hand. My dabblings in basic atomic 
physics were not just tolerated--they were encouraged and supported. 
And some of the things that my colleagues and I accomplished laid the 
foundations for the things that Eric Cornell and Jan Hall achieved, 
just as their achievements enabled much of what we did and set us onto 
new directions.
    NIST holds a leading position in Atomic, Molecular and Optical 
Physics. The three recent Nobel prizes in the area are but one 
testament to that fact. The strong research environment in this area 
was crucial to the development of my own research program, and the 
cross-fertilization was and continues to be extremely important.
    This brings me to what is probably the most important aspect of the 
NIST scientific environment--the quality of the researchers themselves. 
People often ask me why I am still at NIST; why I have not accepted 
offers of greater salaries in other institutions. The main answer is my 
colleagues. I cannot imagine a better and more stimulating environment 
than the one I enjoy at NIST. The colleagues in my own research group, 
plus people like Eric Cornell, Jan Hall, and a long list of others from 
whom I learn and benefit on a daily basis, are what makes working at 
NIST such a rewarding and stimulating experience. When I hear someone 
characterize government workers as clock-watching slackers, I know they 
haven't met my colleagues. When I hear claims that the government 
should hire people who are just good enough to do the job I am 
horrified. NIST has assembled some of the best scientists in the world, 
and has kept them by providing an atmosphere which nurtures the best 
kinds of research. The pay-off has been obvious: three Nobel prizes in 
eight years; world leadership in measurement science; and lines of 
research with present and future applications in commerce, science, 
industry and the military.
    Finally, you have asked for my perspective on what the Federal 
Government can do to improve the competitiveness of U.S. scientific 
research. When we speak of the competitiveness of American science, 
there are two aspects. One is how well science itself competes with the 
science of the rest of the world. The other is how well American 
science contributes to the economic competitiveness of the U.S. in the 
global marketplace. My view is that the one enables the other. We often 
talk, quite rightly, about technology transfer. But most important is 
having technology to transfer. I think that resources of the Federal 
Government devoted to discovery are extremely productive, and that the 
good results will be taken up commercially as long as the environment 
for doing that is kept friendly and relatively free of artificial 
impediments. I must emphasize that these perspectives are my own 
personal ones and not necessarily those of NIST's management. Also, 
while I may be an expert in laser cooling, I am not an expert on the 
sociology and economics of science research. But I have developed some 
ideas about what makes American science strong and what we need to do 
to continue to maintain our position in the increasingly competitive 
international research landscape.
    First I believe it is essential to maintain and in fact increase 
support for basic research, especially in the physical sciences. Post 
WWII, the physical sciences had strong support, in large part because 
of the correct understanding that a legacy of basic research had played 
a key role in the development of such crucial wartime technologies as 
radar and nuclear weapons. That strong support for physical science 
research led to the development of a computer and consumer electronics 
market where American leadership in innovation has allowed us to retain 
a strong position in the face of cheaper production overseas. 
Similarly, advances in medical and life sciences were underpinned by 
strength in the physical sciences. Tools like magnetic resonance 
imaging and other modern medical diagnostic tools had their roots in 
the basic physics research conducted earlier in the 20th century. That 
basic research was being carried out in a wide variety of 
environments--university labs, supported by both civilian and military 
agencies, military and non-military government labs, as well as 
industrial labs.
    The invention of the transistor at Bell Telephone Labs set the 
stage for a booming electronics industry that has sustained much of the 
U.S. economy. It came from a strong and sustained program in basic 
research at Bell Labs, one that was mirrored in other industrial labs 
like RCA, Raytheon, Ford, Xerox, IBM, and so forth. Today, many 
business analysts seriously contend that AT&T never got a significant 
return on its research investment and denigrate the value of any long-
range, basic research in any industry, focusing instead on very short-
term return on investments. Today, Bell Labs is a shadow of its former 
self in regard to basic research and that sort of far-sighted support 
of research has virtually disappeared from American industry. I don't 
know if we can ever expect to return to the golden age of industrial 
research, but I strongly believe that we must, as a nation, regain and 
maintain that level of basic research if we are to remain competitive 
in a world economy. If industry cannot or will not take its traditional 
share of this responsibility, I believe that government must 
compensate. Furthermore, in my opinion it is vital that government 
laboratories like NIST, with a mission focus, do not fall into the same 
short-term thinking about research that infects industry. Imagine where 
the U.S. economy would be today if we as a nation had not made the 
long-term investments, done in part by industrial labs, which led to 
the current semiconductor electronics industry. My reading of our 
history is that NIST has always recognized the importance of 
substantial investment in basic research for the long haul, and I 
commend this attitude to all other mission agencies, both civilian and 
military.
    The recent initiatives by the executive and legislative branches of 
the Federal Government to dramatically increase the support for basic 
research in physical sciences certainly have the right spirit in regard 
to basic and long-term research, and I applaud these efforts.
    In a global economy where both manufacturing and service can be 
provided half a world away, it is through innovative use of new 
knowledge that America can expect to maintain a competitive edge. And 
the first ones with the best opportunity to make use of new knowledge 
are the ones who create it in the first place. That is why basic 
research is so vital, and why America continues to compete successfully 
in a world where labor and other costs are so much less elsewhere. But 
unless we strengthen our position in basic research investment, we run 
the risk of losing what edge we have. I believe that it particularly 
important to make these investments in both good times and bad. One 
never wants to be in a position of eating one's seed-corn, and a 
reduction of our research portfolio in times of tight budgets would 
amount to exactly that. An extension of that reasoning says that for 
Defense purposes we should invest in basic research both in times of 
war and peace, and in times of global superpower competition and in its 
absence. Being able to respond to threats with technology depends 
greatly on having the basic understanding that underpins that 
technology, and basic research is the way one gets that.
    I believe that one of the great strengths of the U.S. research 
climate compared to that of other nations is the diversity of 
environments for doing research and of sources of funding for research. 
Many countries have their research centralized under a ``ministry of 
science'' and one periodically hears calls for similar centralization 
in the U.S. My opinion is that this would be a big mistake. Here in the 
U.S. we have university labs, military labs, national labs, both 
civilian and government operated, with both classified and unclassified 
work. Each has a different environment and culture and therefore a 
different opportunity to make discoveries. I firmly believe that we 
need to maintain this diversity of research opportunities and maintain 
the strength of all of these different parts of our research landscape.
    Similarly, researchers can go to a multitude of agencies for 
support of research in their own institutions. The National Science 
Foundation, NASA, the Dept. of Energy, the intelligence agencies, and 
the various military agencies like DARPA, ONR, AFOSR, and ARO all 
provide opportunities for funding basic research with different 
missions, styles and cultures. The NSF relies on extensive peer review 
from multiple outside experts, while the ONR often makes decisions 
based on the judgment of a single internal program manager. NASA often 
provides support for projects over decades while DARPA changes its 
portfolio on a much shorter time scale. I got my start in large part 
because a single manager at the Office of Naval Research believed in me 
and was interested in the military applications of better clocks. 
Different aspects of my work have, at various times also been supported 
by NASA and the NSA. I am keenly aware of the importance of the ability 
to seek support from agencies with different agendas and styles. And I 
believe that it is vital that we maintain each of these various 
sources, with their individual cultures, with a strong basic research 
component: I do not believe that any research institution is well 
served if it lacks a strong basic research program. I urge that we 
resist attempts to homogenize the approach to funding. I do not believe 
we would be well served if all agencies acted like DARPA, or if they 
all acted like the NSF. I do not believe we would be well served if all 
research were done in universities or if all research were done in 
mission agencies like NIST. We need that diversity--it is one of the 
most important things that makes our nation great in the sphere of 
research.
    Finally, just as the research environment that we enjoy at NIST has 
been crucial to the success of our NIST mission, the research 
environment in the U.S. is essential to American competitiveness on the 
global scene. That environment has been the magnet that has drawn the 
best scientific minds from around the world to the U.S. to study, to 
collaborate with U.S. scientists, and often to remain in the U.S., 
become Americans, and add permanently to our scientific strength. 
Unfortunately, legitimate concerns about national security may have the 
unintended consequence of isolating the U.S. scientifically. There is a 
strong perception among many foreign scientists that the U.S. has 
become a less hospitable place for scientific collaboration. The 
organizing committees of some international conferences are avoiding 
venues in the U.S. because of concerns that some participants may be 
denied visas. U.S. researchers are concerned that students or visitors 
from certain countries may be unable to work in their laboratories 
because of deemed export regulations regarding who is allowed to work 
with certain classes of equipment. Foreign students, who provide a 
substantial fraction of the manpower for the discovery engine of 
American university research, are now choosing other countries in which 
to pursue advanced degrees in part because of their perceptions about 
the U.S. attitude toward foreigners. Today, close to one half of the 
high tech science and engineering positions filled in the U.S. are 
filled by foreign born workers. We need to improve the educational 
pipeline supplying American workers for our high-tech needs, and we 
need to find ways, compatible with our real national security needs, to 
continue to welcome the best of the foreign scientists as students, 
visitors, collaborators, and immigrants. If we do not, we run the risk 
of marginalizing the U.S. scientific enterprise, of putting ourselves 
outside of the mainstream marketplace of ideas; we run the risk of not 
being in the game.
    The beginning of the 21st century is an incredibly exciting place 
to be for any scientist. We look at a physical world that is still full 
of mystery-unsolved problems of the most fundamental sort, problems 
whose solutions are likely to change our lives in unanticipated ways, 
just as the revolutionary discoveries of the 20th century did. I want 
the U.S. to be the world leader in making the great discoveries of this 
century and in claiming the fruits of those discoveries. I know that 
you do as well, and I trust that you will work hard to make it happen. 
I know that I will.
    Thank you very much for your concern and for your attention. I will 
be happy to respond to questions.

                   Biography for William D. Phillips
Date of Birth: 5 November 1948
Place of Birth: Wilkes-Barre, Pennsylvania, USA
Citizenship: United States

Education:

Camp Hill High School, Camp Hill, Pennsylvania, diploma (Valedictorian) 
        1966.

Juniata College, Huntington, Pennsylvania, B.S., Physics, summa cum 
        laude, 1970.

Massachusetts Institute of Technology, Cambridge, Massachusetts, Ph.D., 
        Physics, 1976. Thesis under Prof. Daniel Kleppner, thesis 
        title: I. The Magnetic Moment of the Proton in H<INF>2</INF>O; 
        II. Inelastic Collisions in Excited Na.

Scientific Experience after Ph.D.:

1978-present: Physicist, National Bureau of Standards (Now National 
        Institute for Standards and Technology; 1990-96: Group Leader 
        of the Laser Cooled and Trapped Atoms Group of the Atomic 
        Physics Division; 1996-98, NIST Fellow; 1998-present: NIST 
        Fellow and Group Leader of the Laser Cooling and Trapping 
        Group.

2001-present: Distinguished University Professor, University of 
        Maryland, College Park MD (on leave).

2002-2003: George Eastman Visiting Professor, Balliol College and 
        Clarendon Laboratory, Department of Physics, University of 
        Oxford.

1992-2001: Adjunct Professor of Physics, University of Maryland, 
        College Park.

1989-1990: Visiting Professor at Ecole Normale Superieure, Paris, in 
        the laboratory of Claude Cohen-Tannoudji and Alain Aspect.

1976-1978: Chaim Weizmann Postdoctoral Fellow at Massachusetts 
        Institute of Technology.

Awards and Honors:

Pennsylvania State Scholarship, 1966-1970.

C.C. Ellis Memorial Scholarship, 1969-1970.

Election to Juniata College Honor Society, 1969.

Woodrow Wilson Fellow, 1970.

National Science Foundation Fellow, 1970-1973.

Chaim Weizmann Postdoctoral Fellow, 1976-1978.

Outstanding Young Scientist Award of the Maryland Academy of Sciences, 
        1982.

Scientific Achievement Award of the Washington Academy of Sciences, 
        1982.

Silver Medal of the Department of Commerce, 1983.

Samuel Wesley Stratton Award of the National Bureau of Standards, 1987.

Arthur S. Flemming Award of the Washington Downtown Jaycees, 1988.

Gold Medal of the Dept. of Commerce, 1993.

Election to American Academy of Arts and Sciences, 1995.

Election as a NIST Fellow, 1995.

Michelson Medal of the Franklin Institute, 1996.

Distinguished Traveling Lecturer (APS-DLS), 1996-98.

Election to the National Academy of Sciences, 1997.

Nobel Prize in Physics, 1997. Nobel Prize Citation: ``for development 
        of methods to cool and trap atoms with laser light'' The 1997 
        prize was shared with Steven Chu of Stanford University and 
        Claude Cohen-Tannoudji of the Ecole Normale Superieure, Paris.

Honorary Doctor of Science, Williams College, 1998.

Doctor Honoris Causa de la Universidad de Buenos Aires, 1998.

Arthur L. Schawlow Prize in Laser Science (APS), 1998.

Honorary Doctor of Science, Juniata College, 1999.

American Academy of Achievement Award, 1999.

Gold Medal of the Pennsylvania Society, 1999.

Richtmeyer Award of the Am. Assoc. of Physics Teachers, 2000.

Election to the European Academy of Arts, Sciences and Humanities 
        (titular member), 2000.

Condon Award of NIST, 2002.

Archie Mahan Prize of the OSA.

Election as an Honorary Freeman of the Worshipful Company of 
        Scientitific Instrument Makers, London, 2003.

Election as an alumni member of Juniata College's chapter of Omicron 
        Delta Kappa, the National Leadership Honor Society, 2004.

Election as an Honorary Member of the Optical Society of America.

Appointed an Academician of the Pontifical Academy of Sciences, 2004.

    Chairman Ehlers. Thank you very much.
    Dr. Cornell.

   STATEMENT OF DR. ERIC A. CORNELL, SENIOR SCIENTIST, NIST 
 LABORATORY; FELLOW, JILA; 2001 NOBEL PRIZE WINNER FOR PHYSICS

    Dr. Cornell. Chairman Ehlers and Members of the 
Subcommittee, please allow me to briefly introduce myself and 
my research.
    My name is Eric Cornell. I was hired by NIST in 1992 to do 
research in quantum optics. Then, as now, NIST was known in the 
world of physical sciences as a place where great technology 
meets great ideas and, I must say, great people. In those days, 
Jan and Bill here were already great draws and a good reason to 
come to NIST and the idea that I could work with the likes of 
that was a thrill for me.
    The management at NIST encouraged me to pursue a high-risk 
research program at the cutting edge of modern physics, and 
today, NIST continues to be, and perhaps even more so, an 
incubator for quantum science in the United States. And many of 
the leaders in the field, even if they don't work at NIST at 
the time, have come through a NIST lab at one time or another 
in their careers.
    I won't spend a lot of time rambling about my favorite 
topic, the physics of the ultra-cold, suffice it to say that 
when you chill a gas down to within a millionth of a degree or 
a billionth of a degree of absolute zero, the atoms in the gas 
all merge together to form a ``super atom,'' and this state of 
matter, called the Bose-Einstein condensate, was what I was 
awarded the Nobel Prize for in 2001.
    What has Bose-Einstein condensation been good for?
    Well, for example, it is being use in an effort to develop 
a new generation of sensitive accelerometers, which you could 
use for remote sensing and for navigation by dead reckoning, 
like in submarines. But in the long run, Bose-Einstein 
condensation is likely to be more important because of its role 
as a scientific building block, a tool to help us understand 
and to tame quantum mechanics, and there are many examples of 
how taming quantum mechanics has made, and will make, a big 
difference to our country in the coming two decades. And I will 
tell you just one example, which is called quantum computing. 
Bill has already alluded to it.
    Quantum computing is this really amazing idea that came out 
of the 1990s. Inside any computer, there are millions of tiny 
switches, called bits, and these switches can either be on or 
off, one or zero. And these bits are what a computer uses to 
make calculations. A quantum computer has something called 
quantum bits, and magic--or Q-bits, and the magic of quantum 
bits is that unlike conventional transistors, which are either 
on or off, quantum bits can simultaneously be both one and 
zero. It is a weird idea, something hard to bend your mind 
around, but the power of this possibility comes in when you 
start stringing many of these bits together with 60 ordinary 
computer bits, conventional bits. If you string them in a row, 
you can represent any number between one and about a 
quadrillion. Okay. But with 60 quantum bits in a row, with each 
bit being both one and zero at the same time, you can 
simultaneously represent every number between one and a 
quadrillion.
    So, why would you want to do that?
    Well, a major computational problem, which is very 
important to our national security and to our economy, is 
breaking very large numbers up into their prime factors, into 
the two numbers you multiply together so that it comes out 
evenly. Roughly speaking, a very large number is like a code, 
and its prime factors are a key to the code. Prime factors are 
at the heart of modern cryptography, and that is what makes 
possible secure military and diplomatic communications and also 
the secure electronic transactions that are at the heart of our 
banking and finance system. And if this system of cryptography 
were to be threatened, it could cripple our economy in days or 
hours.
    So this is where quantum computing comes in. Suppose, as a 
cryptographer, you want to know the two numbers that multiply 
together to make up some huge number near a quadrillion. You 
want to know its prime factors. You want to crack this code. 
One way you could do it is to take this--take every number 
between one and a quadrillion and try and divide it into the 
huge number. And if it goes evenly, those are the prime 
factors. Those are the keys to the code. But even for a very 
fast computer, it takes a long time to do a quadrillion 
divisions.
    Suppose, instead, that your computer were made of quantum 
bits. What you can do is take your 60 quantum bits, which 
simultaneously represent every number between one and a 
quadrillion, and use your quantum computer to try and divide 
that number into the huge number you are trying to factor. And 
in a single computational process, you can find out which ones 
work, and you can break the code maybe a billion times faster 
than a conventional computer.
    The implications for secure economic transactions are 
profound. These quantum computers could also find use in 
solving difficult problems like protein folding in order to 
design a new generation of pharmaceuticals.
    None of this is going to happen next week, maybe not even 
in 2007. It is a hard problem, but I think we need to try.
    Members of the Committee, I wish I could tell you what will 
be the big new industry of the year 2020, but no one can know 
the answer for sure, and that, really, is why scientific 
research and discovery is so important to our country. Without 
knowing for sure what the next big thing will be, no one can 
know. We can still remain cautiously optimistic that that next 
big thing, like the Internet, like computers, like transistors, 
or whatever the next big thing, we can remain somewhat 
cautiously optimistic that it will be an American thing. 
Optimistic, because over the last 50 years, as the American 
economy has benefited from many cycles of emerging technology 
becoming high tech and then becoming low tech and being moved 
overseas, the one thing that hasn't changed has been America's 
lead in scientific research. We stay on the cutting edge and we 
win.
    We have to be cautious because, while our lead has been 
emplaced for five decades, the next five decades are no sure 
thing. Let us protect our lead.
    I would like to conclude my testimony by pointing out that 
not every measure that Congress could take to nurture the 
science research requires additional spending. In my personal 
opinion, and I want to echo what Bill has said, one fact that 
has made America's high-tech industry and research so 
successful over the years has been the steady influx of 
brilliance and creative, hardworking, driven science and 
engineering students from all around the world who come here. 
After their graduation, many of these students have stayed in 
our country to contribute to the vitality of our high-tech 
sector. When this happens, the big winners are American 
industry and the American people. Other nations' brain-drain 
has been America's brain-gain. When we make it easier for the 
smartest of the world's young people to come here to study and 
easier for them to stay here afterwards and apply their skills 
to work in the American economy, we help no one more than we 
help ourselves.
    I would like to thank this subcommittee once again for 
allowing me to testify before you today, and I am very happy to 
answer any questions.
    [The prepared statement of Dr. Cornell follows:]

                 Prepared Statement of Eric A. Cornell

    Chairman Ehlers and Members of the Subcommittee, please allow me to 
briefly introduce myself and my research. My name is Eric Cornell and I 
was hired by the National Institute of Standards and Technology (NIST) 
in 1992 to do research in quantum optics. Then as now NIST was known in 
the world of the physical sciences as a place where great technology 
meets great ideas, so I was thrilled to get the job. Management at NIST 
encouraged me to pursue a high-risk research program at the cutting 
edge of modern physics. NIST continues to be something of an incubator 
for quantum science in the U.S. Many of the leaders in the field have 
come through a NIST lab at one time or another in their careers.
    For my part, I set out to make the World's Coldest Gas, building on 
techniques developed by my fellow NIST scientists, Drs. Jan Hall and 
Bill Phillips. Why would we want to make the World's Coldest Gas? There 
were several reasons. It turns out that cold gases are a useful 
environment for making extremely precise measurements, which is a 
capability at the heart of NIST's standards mission. Perhaps more 
important to me personally was that I knew that often times you can do 
the most exciting science if you can work right at the boundary of a 
current technological frontier, and one of science's key frontiers is 
the frontier of very low temperature. Every time we've been able to 
reach new heights (really ``depths'') in low temperature, exciting 
physics has followed.
    I won't use the Committee's time to ramble on about my favorite 
topic, the physics of extreme low temperatures, but I will tell you 
that when a gas, made of atoms, gets colder and colder, those atoms, 
sure, move slower and slower. But there are also more subtle changes. 
For one thing, at room temperature, atoms act like little billiard 
balls, bouncing off the walls and off each other. But close to the very 
lowest possible temperatures, (known as ``absolute zero'') atoms stop 
acting like little balls and start acting instead like little waves. 
And at the VERY lowest temperatures, within a millionth of a degree of 
absolute zero, the atoms all merge together to form one super-atom-
wave, a new state of matter called a Bose-Einstein condensate (BEC). 
Predicted by Albert Einstein back in 1925, the Bose-Einstein condensate 
had never been achieved until we finally found it at NIST in 1995. It 
was for this achievement that I shared (with my colleague from 
University of Colorado, Carl Wieman and with Wolfgang Ketterle) the 
2001 Nobel Prize in physics.
    Where has Bose-Einstein condensation led us, in the ten years since 
we first created it? What, in particular has it been good for? BEC has 
found several direct applications, and in particular we and other 
research groups around the country are trying to develop precision 
accelerometers, gravitometers, and gyroscopes, to be used for remote 
sensing and navigation by dead reckoning. In the long run, BEC is 
likely to be still more important because of its role as a scientific 
building block, a tool to help us understand and tame quantum 
mechanics, and to put quantum mechanics to use on problems with 
relevance to our economy, our health, and our national security.
    Let me share with you two examples of how the taming of quantum 
mechanics may make a big difference to our country in the coming two 
decades. The first is quantum computing.
    Quantum computing is one of the most amazing concepts to come out 
of the 1990s. What puts the ``quantum'' in quantum computing is so-
called ``quantum bits.'' In an ordinary computer, there are millions of 
tiny switches, called bits, that can be either on or off, one or zero. 
The bits are the memory of the computer, and the bits are what a 
computer uses to make calculations. A ``quantum bit,'' or ``qbit,'' 
transcends the traditional requirement that a bit be either ``on'' or 
``off.'' A qbit instead can simultaneously be in a combination of 
``on'' or ``off.'' The power of this possibility comes in when you 
start stringing many qbits together. With ten bits in a row, with 
different combinations of ``ones'' or ``zeros,'' you can represent any 
number between zero and 1023. With ten quantum bits in a row, each in a 
superposition of one and zero, you can simultaneously represent every 
number between one and a thousand.
    Why would one want to do that? We can take as an example a 
computational problem which is extremely important to our national 
security and our economy--breaking large numbers up into their prime 
factors. Prime factors are at the heart of our cryptography systems, 
which allow for secure military and diplomatic communications, but also 
are at the heart of our banking and finance system. Businesses, banks, 
and increasingly ordinary consumers do not send cash or even checks for 
transactions--they send encrypted ones and zeros. If this system of 
cryptography is threatened, it could cripple our economy in days or 
hours. Roughly speaking, very large numbers are the code, and the prime 
numbers that divide in evenly are the key to the code.
    Here is where quantum computing comes in. Suppose you want to find 
out what are the factors of 999,997. One way you could do that is to 
take every number from one to a thousand, and try to divide it into 
999,997. The ones that go in evenly, those are the prime factors! Even 
for a modern computer, it takes a while to do one thousand divisions. 
Suppose instead your computer is made of quantum bits. What you can do 
is take your ten quantum bits, which simultaneously represent every 
number between one and a thousand, and try to divide that number into 
999,997. In one single mathematical operation, you can find out if any 
of those numbers divide in evenly, and thus crack the code in one 
operation instead of in one thousand.
    For cryptography, you don't care about numbers like 999,997--you 
care about numbers that are a trillion trillion times larger, and what 
are the prime factors of those numbers. Using a quantum computer, you 
could answer that question in principle a trillion times faster than 
you can with an ordinary computer, even a so-called ``super-computer.'' 
The implications for secure communications and economic transactions 
are profound.
    There are other extremely difficult problems in computing, problems 
which are too hard for even the fastest modern computers to solve. One 
of these is the problem of protein folding, the way in which chains of 
amino acids bundle in on one another to form the parts that make up 
living biological cell. If this folding goes wrong, you get mad cow 
disease. The flip side is if you can learn to control and predict 
protein folding, you have a very powerful tool for designing the next 
generation of drugs. This is the sort of problem that a breakthrough in 
quantum computing could hugely impact, again by allowing one to do 
trillions of calculations all at once.
    None of this is going to happen tomorrow. What I have left out of 
this whirlwind geewhiz presentation of the potential of quantum 
computing is that there is no working quantum computer now, and don't 
count on there being one in 2007, either! The scientific and technical 
challenges associated with constructing quantum bits, and stringing 
them together into an integrated computer, are immense. In a modern 
conventional computer, there are literally billions of zero-one bits. A 
modern quantum computer would be so much more powerful than a 
conventional computer that it would not need billions of quantum bits 
in order to do amazing things. But it would need thousands of quantum 
bits. Currently the best experimental quantum computing teams are able 
to string together about four, maybe six quantum bits. Still, my own 
opinion is that quantum computing is such a powerful idea, it really 
must be explored.
    So why is it important that the U.S. conduct this research? As with 
any problem, human nature dictates that there will always be curious 
people trying to come up with a solution. Quantum physics is no 
different. Teams from around the globe are conducting research trying 
to solve the riddle of quantum computing. If the U.S. stays on the 
sidelines, then we will watch others make profound discoveries that 
will ultimately improve the competitiveness of their industries and 
quality of life. The big question is what is going to be the big new 
industry of 2020? If I knew the answer, I would not be here in front of 
you testifying--I'd be off setting up my own high-tech venture capital 
company instead. No one knows the answer for sure, that is why 
scientific research and discovery is so important. Without knowing for 
sure what the next big thing will be, we can remain cautiously 
optimistic that that big thing will be an American thing. The reason 
for optimism is that, over the last fifty years, as the American 
economy has benefited from many cycles of emerging technology, the one 
big thing that hasn't changed has been America's lead in science 
research. The reason for caution is that, while our lead has remained 
in place for 50 years, it need not remain for another 50. It needs to 
be nurtured!
    I'd like to conclude my testimony by pointing out in that not every 
measure that Congress could take to nurture science research requires 
additional spending. In my personal opinion, one fact that has made 
American high tech research and industry so successful over the years 
has been the steady influx of brilliant, creative, and hardworking 
science and engineering students from all around the world. After their 
graduation, many of these students have stayed on in our country to 
contribute to the vitality of our high-tech sector. When this happens, 
the big winners are American industry and the American people. Other 
nations' brain drain has been America's brain gain! When we make it 
easier for the smartest of the world's young people to come here to 
study, and easier for them to stay here afterwards and put their skills 
to work in the American economy, we help no one more than we help 
ourselves.
    I would like to thank the Subcommittee once again for allowing me 
to testify before you today. I will be happy to answer any questions.

                     Biography for Eric A. Cornell

Degrees

        <bullet>  B.S., Physics, with honor and with distinction, 
        Stanford University, 1985

        <bullet>  Ph.D., Physics, MIT, 1990

Appointments

        <bullet>  Fellow, JILA, NIST and University of Colorado at 
        Boulder, 1994-present

        <bullet>  Senior Scientist, National Institute of Standards and 
        Technology, Boulder, 1992-present

        <bullet>  Professor Adjoint, Physics Department, University of 
        Colorado, Boulder, 1995-present

        <bullet>  Assistant Professor Adjoint, Physics Department, 
        University of Colorado, Boulder, 1992-1995

        <bullet>  Post-Doctorate, Joint Institute for Laboratory 
        Astrophysics, Boulder, 1990-1992

        <bullet>  Summer Post-Doctorate, Rowland Institute, Cambridge, 
        1990

        <bullet>  Research Assistant, MIT, 1985-1990; Teaching Fellow, 
        Harvard Extension School, 1989

        <bullet>  Research Assistant, Stanford University, 1982-1985

Honors and Awards

        <bullet>  Member, National Academy of Sciences, 2000

        <bullet>  Fellow, Optical Society of America; Elected 2000 R.W. 
        Wood Prize, Optical Society of America, 1999

        <bullet>  Benjamin Franklin Medal in Physics, 1999

        <bullet>  Lorentz Medal, Royal Netherlands Academy of Arts and 
        Sciences, 1998

        <bullet>  Fellow, The American Physical Society; Elected 1997

        <bullet>  I.I. Rabi Prize in Atomic, Molecular and Optical 
        Physics, American Physical Society, 1997

        <bullet>  King Faisal International Prize in Science, 1997

        <bullet>  National Science Foundation Alan T. Waterman Award, 
        1997

        <bullet>  Carl Zeiss Award, Ernst Abbe Fund, 1996

        <bullet>  Fritz London Prize in Low Temperature Physics, 1996

        <bullet>  Department of Commerce Gold Medal, 1996

        <bullet>  Presidential Early Career Award in Science and 
        Engineering, 1996

        <bullet>  Newcomb-Cleveland Prize, American Association for the 
        Advancement of Science, 1995-96

        <bullet>  Samuel Wesley Stratton Award, National Institute of 
        Science and Technology, 1995

        <bullet>  Firestone Award for Excellence in Undergraduate 
        Research, 1985

        <bullet>  National Science Foundation Graduate Fellowship, 
        1985-1988

    Chairman Ehlers. Thank you very much.
    Dr. Hall. Just push the button, and perhaps pull it closer 
to you.

STATEMENT OF DR. JOHN ``JAN'' L. HALL, SCIENTIST EMERITUS, NIST 
 LABORATORY; FELLOW, JILA; 2005 NOBEL PRIZE WINNER FOR PHYSICS

    Dr. Hall. Mr. Chairman, Honorable Congressmen, other 
colleagues acting in the public's service, and ladies and 
gentlemen, I am absolutely delighted to have the chance to 
interact with your public forum about the issues which I see as 
challenging us for the next time. If I have a moment at the 
end, I would even, since I am now retired, undertake to discuss 
some of the 600-pound gorillas that are in our room and somehow 
never get attention.
    In brief, the NIST has gone from, when I first joined in 
1961, mixed strengths to a case where it is, really, I think, 
the world's strongest research organization, at this point. But 
we, in earlier times, had other American organizations carrying 
letters, like IBM and Bell Telephone Laboratories and General 
Electric, but we know that story. We have somehow gotten 
confused about where our strengths are. No one is taking care 
of--or few people are taking care of the long-term interests, 
which are about basic research and about application of 
resources to training the next generation of people.
    In JILA, I had seen the possibilities of this quantum 
optics, the precursor to the quantum computing that Eric 
mentioned, and the NIST was responsive to my proposal to start 
one post-doctorate project. We interviewed for candidates, and 
one candidate showed up who was completely smarter than the 
rest of them, but he had his own dream. He wanted to fool 
around with Bose-Einstein condensation. So I hired Eric 
Cornell, helped to hire him, and used my money, which was for 
quantum optics. And less than this chart. They didn't say 
anything. They didn't say, ``Oh, that is really a bad thing. 
You can't do that. We have this programmatic objective.'' They 
understand that the best-trained, smartest people are the 
fundamental resource for the country. So in the end, 
collaboration with Jeff Kimble at Cal-Tech, we did get to the 
place that this quantum optics works, and it is basically the 
tool, which, along with the laser stabilization and cold atom 
control, which made possible this new scenario that we will 
have quantum-based computing.
    So again, the people are the resource, and if we don't take 
advantage of the people who would like to come and work here, 
that is really going to be a pity for us.
    A second thread that I would like to focus on is the issue 
about motivations. And my experience has been that people can 
work together and they can make nice progress when there is 
some reciprocal respect between them. And it may be a long-
distance respect, for example, the collaborators that I didn't 
know anything about. In 1960, lasers were invented. One of them 
was running continuously and was a little bit steady, and I saw 
the prospect to make it even more steady and even more steady. 
And so completely boring, it would never change, even in a few 
seconds. The other people saw the possibility to bring a lot of 
energy in a short time, melt some steel, then it would be 
better if it melted it quicker. And finally, you have probably 
seen glass exhibits where there are white dots inside. Those 
are burned in by lasers with extremely short pulses. So these 
two ideas, cultures went around the world and met again in JILA 
when we hired another person that was a laser specialist. His 
laser needed my control techniques, and that merger made 
possible the stable lasers that are the basis of this optical 
comb. Another thing were people who were trying to design 
fibers that would carry signals under the sea. And with that, 
one would like to have all of the colors go at the same speed. 
Well, that turns out to be wrong for that purpose but perfect 
for making white light out of the laser impulse. So here are 
two more current ones, and one from industry as well, which 
made possible the comb and the comb is now a tool, which, I 
guess, is our best measurement tool. So then the question of 
what will you find, who knows, but we do know that there are 
lots of scientific puzzles. For example, we have dark matter 
that is 70 percent of all of the matter that there is and we 
don't know anything about it.
    The last topic that I would just like to say about is about 
the consequences of--unintended consequences from choices. I 
feel that industry is the place where the last step of research 
ought to happen. We have students that really know how to do 
something. Oftentimes, they are students now for five years or 
something. And they may be from another country. And then if 
they need to change their visa status to be employees, there is 
a problem. So we absolutely need to deal with the issue of 
being able to retain trained people. The universities have 
access to visitors' visas, and the companies ultimately have 
it, and in the meantime, there is either a lost year or a lost 
genius, which is just happening in my lab.
    The second thing is the companies should be economically 
encouraged to try to make investments in research. And I think 
some kind of tilt so that there was a tax about trading would 
be a good idea. I don't know any of the details, but my general 
concept is that there is no advantage to the country to have 
fast churning. And someone who says he made money by trading 
shares in the weekend I think is not helping us. Somebody who 
keeps money in his project for five years, he should have some 
just reward. So we should have a tax at those--anyway, those 
are just suggested ideas.
    The main issue is about kids. I absolutely love kids. Many 
people think I am wasting my time going to magnet schools 
talking to the seventh and eighth graders. That is where the 
energy is coming from, and that is--I just love those kids. I 
only hope I last long enough to see them when they get into our 
universities.
    Thanks for letting me testify.
    [The prepared statement of Dr. Hall follows:]

                   Prepared Statement of John L. Hall

    Mr. Chairman, Honorable Congressmen, other Colleagues engaged in 
the Public's Service, Ladies and Gentlemen.
    I believe I have been invited briefly to discuss the role of NIST 
in my field of Science, namely precision spectroscopy, and several 
broader issues. However, now being a little older and thereby 
predisposed to give advice, at the end if there is time I will make use 
of my retirement status to speak of several ugly 600 pound Gorilla that 
trouble our space, but are not often a part of public discussions.

The role that NIST plays in my field of science

    To be brief, the NIST has developed from mixed strengths in the 
1960's to the present status of one of the strongest research 
organizations that exist. Regrettably, perhaps I should have said 
``that still exist.'' What NIST (and its predecessor, NBS) have done 
well is to establish a climate of excellence and intellectual openness 
wherein the research staff are proud to be members, and to recruit the 
most talented young scientists as they become available from time to 
time. For example, I pursued development of a series of Optical 
Frequency Standards, and related technology, from the late 1960's until 
my retirement in 2004. By articulating a vision of research into 
Metrology, broadly defined, NIST has gradually awarded freedom to each 
of us to follow our own sense of what is important to NIST's mission. 
It is not abdication of the Management's control and oversight role, 
rather it is development of a cooperative vision and synthesis of 
insights of our working-level people who are in the research labs and 
can make suggestions for new frontier opportunities and research areas. 
My relationship with NIST is a success story about trust--and the use 
of really long ropes in the exercise of control. Typically the NIST 
scientists can see some technical opportunity that will be of 
significant interest to NIST's metrology responsibility. Once this was 
about a program proposed by me, and accepted by NIST Management, of an 
exploration into the field of Quantum Optics, which has now become a 
really hot research field, at the edge of entering actual practical 
application, in the distribution of secret cryptographic keys. Among 
the candidates who applied for this new JILA position, there was a 
young fellow with a persistent interest in some hypothetical process 
called Bose Condensation. Dr. Eric Cornell's vision and capability for 
achieving BEC later was wildly successful as you know, leading to his 
Nobel Prize in 2001. About the JILA Quantum Optics Program, later on we 
did succeed well in this research in a collaboration with Professor 
Jeff Kimble at Cal Tech. I note also that NIST did not say a single 
word of criticism to me for urging my JILA colleagues to welcome Eric 
Cornell into this JILA/NIST position, even though it assured only a 
delayed success on our nominal Quantum Optics super-sensitive detection 
program. Evidently, and much more importantly to NIST, we caught 
another ``really good one'' into the organization. It confirms the 
NIST's respect for the eternal reality that brilliant well-trained 
people are the fundamental resource of the Nation. We need them on-
board. We need to learn how to produce more. And we need to reduce the 
negative aspects, as I note below.

The steps between ideas, realizations, and the Nobel Prize

    My professional work has been to understand the issues in building 
Atomic Clocks that would be based on the using ``clicks'' provided by 
optical--rather than radio domain--reference transitions. With more 
vibrations completed per second, but with only the same blurring 
effects, clearly we can win resolution by enjoying the many-fold more 
counts associated with the optical system. After the opening up of 
China in the early `80's, when my first Chinese colleague arrived, I 
announced to him my career dream--to make a laser so stable that one Hz 
would be the operative level of accuracy. At the time, five million Hz 
was a good narrow linewidth. In these 40 quick years, the JILA/NIST/
University of Colorado enterprise has spun off a half-dozen of the 
world's best researchers in this field, most of whom continue as NIST 
employees still pushing this frontier. Indeed in the two years since I 
retired their advances have been nothing short of spectacular. AND 
we've reached below one Hz with a simpler approach!
    Well, perhaps this objective of achieving a factor of five million 
linewidth improvement did seem profoundly optimistic. But with the 
clear NIST interest and standards need, and a diversity of support by 
various agencies by our emphasizing one aspect or another of the 
research, it was possible to have this 25 additional years running 
toward the goal line. On two occasions NBS/NIST supported massive 
development programs (scale of 5-8 persons times three or four years), 
with the purpose of measuring the optical frequency on an absolute 
scale. The laser standards had clear promise, but they lived in an 
isolated measurement domain with frequencies five million-fold higher 
than the FM radio band uses. So while everyone can expect the narrow 
optical lines would offer better frequency stability, no one knew an 
effective way to actually measure their frequencies--their vibrations 
occurred about 100,000--fold faster than we were able to processes 
electronically. This big gap had been spanned first in 1972 by a heroic 
cooperation of about eight NBS scientists in a four-year program to 
measure the frequency of a methane-stabilized laser, the first laser 
stabilized effectively by molecules. I had developed this scheme in 
1969 with a NBS colleague, the late Richard Barger. The concept of that 
time was to use step-after-step factors of two increase in the working 
frequency--a dozen steps or so--with different technologies adapted for 
their different wavelength bands. This was really hard work.
    Barger and I measured the wavelength of the laser by comparison 
with the then-existing international Krypton wavelength standard, based 
on a discharge lamp light source. The frequency measurement team was 
headed by Dr. Ken Evenson, also now deceased. The product of wavelength 
and frequency is the speed of light, and in this way we obtained the 
value which essentially was the basis for the official redefinition of 
the Metre in 1983.
    The first of the new enabling ideas for better frequency 
measurement methods came in 1978 from Veniamin Chebotayev in 
Novosibirsk and from Ted Hansch at Stanford. Both colleagues admired 
the always-shorter pulses available from the newest generations of 
lasers, and were moved to think of the correspondingly increased 
frequency bandwidth, according to the Uncertainty Principle. One decade 
later their audacity had reached the place where they were thinking 
about pulses 100-fold shorter than the best actual results, since this 
shorter pulse would be short enough to bring the associated frequency 
bandwidth up to cover most of the visible domain. If such as laser were 
to be given a reliable and steady ``heartbeat'' of repeating pulses, 
the broad visible spectrum would be changed from a smooth, broad lump, 
into a lump of the same overall envelope, but no longer smooth, but 
rather intensely structured. Because of the uniform time pulsing, a 
uniform ``comb'' of optical frequencies was to be created. Lasers of 
the day could be amplified to produce broad spectra, but were not 
rapid-firing. This essentially mathematical basis for the ``Comb'' was 
documented in Ted's writeup of 1996 or '97.
    A crucial new element showed up in 1999, a fast-repeating mode-
locked laser just coming into the market. Its power was just a normal 
level (less than a watt), but the pulses were exceedingly short in 
time. This means really high power on the peak, since the laser is ON 
only one millionth of the time. Indeed those lasers were able to zap 
many objects. Perhaps you have seen solid glass objects with bubbles 
inside, produced by the extremely high intensities available with 
focusing such a laser. A Bell-Labs team explored the results that could 
be produced by focusing part of this power into an optical fiber. This 
idea seemed especially attractive since, if the light could ever be 
focused into it, the fiber would keep it spatially confined. Some 
broadening of the spectrum was observed, but nothing incredible.
    What really made the difference was an added idea, that of a 
special fiber design using tiny air tubes surrounding the inner glass 
rod that carries the light. Because tube-size to rod size ratio could 
be varied, the Bell Labs team had a fiber designed so that light of all 
visible colors could travel at basically the same speed. Then those 
powerful laser pulses would stay sharp in time, keeping a sharp hammer 
pulse traveling through even some meters of the fiber. But the high 
peak power affects the glass to respond in a nonlinear way, generating 
new colors as the light traveled through the ``Magic Rainbow Fiber.'' 
After we finally managed to get a sample of this fiber, we needed about 
one month to merge the fiber plus the femtosecond pulse laser plus my 
frequency-stabilized reference laser, which we had developed for 
standards work in my lab.
    An interesting aspect of this ``race for the finish'' was the mixed 
cooperative/competitive relationship between our labs and the ones of 
Professor Ted Hansch in Munich. I had met Ted just when his University 
studies were ending in 1969, and we have been friends for many years. I 
have been on ``sabbatical'' study at his labs in Stanford, which led to 
a nice joint patent on laser stabilization. Later I was a Humboldt 
Senior Visiting Scientist at his new Max Planck Institute labs in 
Munich. By exchanging Postdoc colleagues regularly when the competition 
got hot, each group was kept up-to-date about the other group's 
progress and new techniques. Their group got the first publication 
showing the principle, published on 10 April 2000. Our first paper 
showed an additional nice aspect of the time behavior of the pulses, 
and was published on 29 April 2000, merely 18 days later. A joint paper 
appeared a month later. Five years and a few months later we ``got the 
call.''
    The first generation of applications are essentially in science: 
synchronizing UltraFast lasers, providing spectral extension by adding 
the outputs of two lasers, providing ``Designer'' optical waveforms for 
Quantum Control experiments. One hugely exciting area is already 
demonstrated by my colleague, Dr. Jun Ye. This is using the comb laser 
pulse as the input beam to a resonant cavity with its cavity modes 
matching the frequency intervals in the comb. Then there are 10,000 
parallel experiments prepared: he watches the ``ring-down'' curves, in 
principle, of all of these illuminated modes. At frequencies where 
intra-cavity molecules provide additional absorption, the stored cavity 
power ring-down will be quicker in time. This wavelength-time picture 
is captured on a CCD camera, with one axis showing the wavelength-
dispersed colors, and the other direction is a time-sweep imposed by a 
fast deflector. This is parallel processing in the extreme. They have 
already demonstrated sensitivities at a level of possible interest in 
the Airport Sniffing application, and several companies have expressed 
interest in the concept.
    Exciting applications of the comb will be in measurement 
applications, but now of big things. Like Boeing airplanes. The comb 
has sharply defined temporal AND wavelength aspects, which allow one to 
do ranging for getting the first distance estimate and then enhance the 
sensitivity by using interferometry. This comb scheme will be 
definitive for NASA in Formation-Flying projects.

Issues that negatively impact the development of science and 
                    technologists in the U.S.

A.  Bad feedback discourages self-investment efforts

        1.  to students: electronic and computer engineering is done 
        offshore. Sorry.

        2.  World-leadership scientists have been preparing apparatus 
        for flight experiments in the next several years. However, the 
        abrupt change of NASA's direction shows young people that there 
        is no real use for them to prepare themselves to do great 
        things.

        3.  bad feedback to high achievers also--for example, a Nobel 
        Prize is ordinary income (seems like long-term gain on 
        investment to me--44 years investment +9 in college)

B.  Taxation Implications in business

        1.  Tax structure should encourage research in companies. Need 
        to make such investment attractive, is spite of concern to keep 
        research results inside.

                a.  Just giving a tax credit is probably not enough.

        2.  Have to change investor behavior to accept longer-term 
        vision

                a.  Make capital gain tax high for weekend traders--
                they don't contribute to progress, represent friction 
                and loss

                b.  A tax on gains may not damp this enough--also tax 
                on the purchase?

                c.  But reduce capital gain tax slowly over time. Maybe 
                ends in seven years.

C.  Immigration Problems

        1.  Visa Problem is causing the U.S. to become isolated 
        scientifically

                a.  Can't organize meetings in U.S. because visa 
                processing is too slow

                b.  Can't get new crop of postdocs because of limit on 
                H1B visas.

        2.  University research can't be transferred to industry and 
        developed because of visa limit. Industry has to apply for new 
        H1B visa, and this usual means waiting until October for the 
        next quota. This prevents capitalizing on our creative works.

D.  Counting of jobs changes in economy is dishonest in the extreme. We 
lose jobs in manufacturing and research, and create ones at minimum 
wage. Net disposable income is lower. Now Mom has to work too. Family 
is under stress. Parents are too tired to help kids by interest in 
school affairs. This means Disaster at school. No wonder things are 
going bad for our competitiveness: only the very first cost was 
considered by the business managers. The societal costs of going 
offshore may be sinking us. WHO IS THINKING ABOUT THESE COUPLED 
SYSTEMS?

E.  Other issues. System of just-in-time delivery is wasteful of 
energy. We don't have storage of parts anymore. Often I have to wait 
for next manufacturer run. For thin Tungsten wire we had a one-year 
delivery, used to get it from their stock. No inventory is kept--reason 
is inventory tax on Finished Goods, not on parts.

                               Discussion

                        Gravitational Red Shift

    Chairman Ehlers. Thank you very much for your comments.
    We will now open our first round of questions. And I have 
numerous questions. Obviously, I can't be limited to five 
minutes, so I suspect we are going to have several rounds of 
questions.
    But let me also just take a moment to introduce another 
star from NIST. And it is very appropriate to call her a star, 
because she is a master physicist, Katharine Gebbie. If you 
will, would you rise, please, Katharine? And she was a real 
groundbreaker. She was also at JILA when I was there, but a 
real groundbreaker in the world of astrophysics. Very few women 
were in it at the time you started, as I recall. So thank you 
for what you have done.
    Several questions.
    First of all, Dr. Phillips, before we met, and I think this 
will be an interesting illustration of how things have changed 
in science in the past decade and what some of your discoveries 
mean. You mentioned that you can now measure the gravitational 
red shift between Boulder and Washington, DC. And measuring the 
red shift, for the politically intoned here, does not mean 
measuring the shift toward the left or toward the communism. 
Would you just give a brief explanation of----
    Dr. Phillips. Back in 1916, Einstein came up with a new 
theory of gravity. And one of the things that came out of that 
theory was the idea that clocks would run a little bit slower 
when they were deeper in a gravitational potential, which is to 
say that a clock in Washington runs a little bit slower than a 
clock in Boulder, since Boulder is about a mile higher than 
Washington. And when I first came to NIST 27-and-some years 
ago, the quality of clocks was such that that difference was 
not something that people worried about. We had the very best 
clocks in the world, but that difference of one mile was just 
barely resolvable. It was about a part in 10<SUP>13</SUP>. Now 
clocks have improved so much that the kind of clocks that are 
coming out of the research that Jan Hall introduced are so good 
that they can tell the difference between a clock--two clocks 
separated by one foot. So what was barely visible at one mile 
is now visible at one foot. And to me, it is just astounding 
that this kind of development has occurred. The implications of 
what you can do with that, both from a scientific point of view 
and from a practical point of view, are just stunning. We 
should be able to tell, with clocks this good, where Einstein 
is wrong. And everybody believes that it has got to be wrong, 
but nobody has ever found anything wrong with Einstein's 
theories so far, but we believe they must be wrong, because we 
know that the whole--the way in which physical theory fits 
together is going to have to break down what Einstein told us. 
We just don't know where and how. And these new clocks, I 
think, are going to show us the route forward that may be the 
next great breakthrough in our understanding of the physical 
universe.
    Chairman Ehlers. And let me just emphasize to the audience, 
those who are not scientists, when we use the word ``clock'' 
here, it is somewhat different than the one hanging on the 
wall. I recall when I was a graduate student, we had one of the 
first atomic clocks ever built, in fact, the second one built. 
And the press conference reporters coming in, the most common 
question was ``Where is the face of the clock?'' So we brought 
a $6 electric clock, plugged it in, and sat it on top, and all 
of the reporters were happy.

                               Education

    The next question, Dr. Hall, I want to get back to your 
600-pound gorilla. I am interested in where you see the 
gorillas of the world today.
    Dr. Hall. I worry about the feedback that we offer to 
children. If one has had the joy of children in the family, or 
perhaps learned how to live comfortably with a dog by going to 
obedience school with a dog, you come to understand that 
encouragement works and feedback works, and force, roughly 
speaking, doesn't work. So in the case of the students, how are 
you going to get good, young, smart American guys to go into 
electronics and computer engineering, because as soon as that 
reaches some level of perfection, then that job goes to another 
country? And that is--really bothers me in our computing 
science department in the University of Colorado. We were going 
up, up, up and now down, down, down, because the smart kids 
say, ``Oh, man, that is not going to be a good story.'' World 
leadership scientists have been preparing apparatus for flight 
experiments, testing these fundamental issues that Bill said 
some of whether the Einstein gravity is the right picture. Out 
at some mission-driven agency, a nameless one with letters like 
N-A-S-A, has changed its course and now here are people with 12 
years down stream, graduate students in the pipe, and all of a 
sudden, they are high and dry because of the national change. I 
really wish stuff like that would get discussed. That feedback 
comes to high achievers as well. How does it seem to you to 
have a long-term investment be rewarded in a very aggressive 
kind of way? I know something about the history of why it is, 
but I would have thought a Nobel Prize was something that ought 
to be taxed like it was an investment for a long time. I have 
been at it 44 years, and I had nine years of college before 
that, and if that isn't long-term, I don't know. Only the tax 
law says it is ordinary income. Now I don't give a crap about 
it for myself, but it is a wrong message for kids.
    So that is one of my gorillas.
    Chairman Ehlers. Thank you. I appreciate your comments.
    I am pleased to recognize Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman.

                        Use of Previous Research

    Let me begin sort of a little bit far a field and work in 
toward what I want to ask.
    Last night, we had 11 amendments aimed at various 
provisions in an agricultural bill. And on the face of it, 
maybe a hydroponics center in Ohio may or may not be a good 
investment. I don't really know. I just know that we faced 11 
of these amendments last night. We just barely, because of 
airline schedules, avoided 14 similar amendments striking out 
various provisions from an appropriations--interior 
appropriations bill the night before. And I remember as a child 
hearing about Golden Fleece Awards given out here in 
Washington, DC. And maybe some folks really deserved the Golden 
Fleece Award, and maybe some folks didn't. I know that some 
things don't sound immediately productive when you just read 
the caption or the title, but the saying that I have heard in 
science, and it is probably true in statesmanship, also, is 
that we all stand on the shoulders of giants. And it seems to 
me that before us today, you three gentlemen, your work may be 
somewhat related to each other that, to some extent, your work 
has built upon each other and perhaps not. But you can probably 
easily cite examples within NIST or within the scientific 
community of examples where it may not have been immediately 
apparent where the work was going or what the applications 
would be, but later on, it led to tremendous things, whether it 
is in basic science, applied, or industrial applications. You 
may not know who may be standing on your shoulders in the 
future, and you may not know whose shoulders you may be 
standing on, but the necessity of standing on someone's 
shoulders, I think, is clearly there, and I would like you to--
if you are--if somehow your three research projects were 
dependent upon each other, to some extent, I would like you to 
address that. And perhaps address some other aspects of 
research to at least take a little bit of the steam out of the 
political process of taking easy shots and awarding having 
fewer phenomena, such as Golden Fleece Awards.
    Dr. Phillips. Well, I would be happy to address that, 
because I think you hit the nail right on the head. It is 
exactly as you say and certainly has been the case in the 
research of the people sitting at this table. I developed some 
techniques that were able to get a gas of atoms really cold. 
Eric, building on that, developed some more techniques to get 
it even colder and then got this marvelous thing called a Bose-
Einstein condensate. As soon as we heard about Eric's success 
in getting a Bose-Einstein condensate, we said, ``Wow. We want 
some of that.'' And we built a whole program in our laboratory 
based on Bose-Einstein condensates. And we are still working on 
that. In the case of our relationship, things that I did ended 
up being used in his lab, and things that he did ended up being 
used in my lab and changed our whole directions of our 
research.
    And as far as unanticipated things, when I first got 
started, we were thinking about atomic clocks. It was a 
mission-driven thing. We had a mission. This mission is 
precision measurement, among other things, and clocks are one 
of those things. And that is why we did it. We had no idea that 
it was going to lead to things like Bose-Einstein condensates, 
quantum computers. So these things are areas of research that 
have commercial, military, and national security implications. 
We had no idea. But they are real things that are happening 
now.
    Dr. Cornell. I should add that both Bill and I, in order to 
get atoms very cold, needed to use extraordinarily stable 
lasers. And to do that--in that case, I just go down the hall 
and talk to my colleague Jan here who says, ``Let me show you a 
really great circuit. It doesn't cost very much. It works like 
a charm. You can't buy this anywhere.'' And that makes it 
possible to make tremendously rapid progress.
    And there is another NIST scientist, who is not here now, 
but I think you alluded to her, the McArthur Genius. Actually, 
she was a guest of the First Lady at the State of the Union 
Address, Deborah Jin, who is using many of the techniques that 
we have developed. I think all three of us can say, if others 
have seen farther than we have, it is because giants are 
standing on our shoulders. And she is doing--I think it is 
doubtless you will see her here some day as well.
    Dr. Hall. It is not quite incestuous, but there is some 
utility in the things which NIST can add. And when I first 
joined, one of the things which was completely new was the 
laser had just arrived. And then people started dreaming that 
we could measure the speed of light. And that led to the 
realization that the laser wasn't very stable. And then that 
led to a program to try to make it better. So my life, 
basically, has been spent as a toolmaker, making these little 
boxes. And when you get the next idea, then you can use these 
in conjunction. And now there is a pretty vigorous industry 
selling these little things. And in the beginning, I had to 
figure it all out.
    So the good part is that everything which is freshly made 
and new ideas go to Eric's or some other labs, and all I have 
left is the completely old stuff, the prototype, hand soldered 
by myself. Tools are really how you think. I guess, if you 
wanted to do something useful in research, it is better to have 
state-of-the-art tools, because you will be exploring a part of 
the world which hasn't really been looked over yet. And so the 
guy that has some imagination or interest in how to do that 
sort of boring engineering stuff is at a real great advantage. 
So that is how I got into it.
    Mr. Wu. Well, thank you very much.
    And thank you very much, Mr. Chairman. I thought this was 
just an unusually good opportunity to demonstrate the inter-
linkage of research, because so often the folks who are 
standing on each other's shoulders may be separated by 
thousands of miles or decades of time. And in this particular 
case, this is an unusually tight demonstration of that.
    Thank you, Mr. Chairman.
    Chairman Ehlers. The gentleman's time has expired.
    Your comment about tools, Jan, reminds me of when I was a 
student, which obviously was quite a few years ago. And I met a 
very old gentleman who described how success, when he was a 
student, was determined by who could do the best job of drawing 
a fine glass fiber. And it is ironic how mundane and 
experimental physics gets intertwined with the sublime.
    Next, I am pleased to recognize the gentleman from 
Washington, Dr. Baird.
    Mr. Baird. Thank you, Mr. Chairman.

                    Gravitational Red Shift (cont.)

    It is a real pleasure to see you gentlemen. I was 
privileged to co-author the legislation that we passed a while 
back recognizing your achievements, and it is a real pleasure 
to serve on this Committee. We have a lot of opportunities in 
this Congress to do many things, but this is sort of the brain 
candy of the job for some of us.
    Two questions, Dr. Hall.
    The clocks, just so I am clear, measure differently as they 
get closer to the center of the gravitational field. Which one 
is faster? The one that is distant or the one that is close?
    Dr. Hall. A clock which is high up is not down in the 
energy valley, so it has a higher frequency.
    Mr. Baird. Interesting. And speed doesn't have a factor 
into that?
    Dr. Hall. Speed does have a factor.
    Mr. Baird. Because of the rotation of the Earth.
    Dr. Hall. And in the case where I think the highest--well, 
a mixture of really high-tech and really high-sophisticated 
theory is the GPS system. As that satellite is coming along and 
has the radio that is transmitting to me, there is a huge first 
order Doppler shift. And then as it goes away, again we have to 
deal with that.
    Mr. Baird. And that is calculated in by the machines?
    Dr. Hall. Yes. And so my little handheld thing figures that 
out, and the clocks that were in the satellite when they were 
first made had a switch so that it could be set on where the 
physics community said the shift should be. Engineers didn't 
believe that for a microsecond. It came out of general 
relativity. And then they had a switch position for zero 
correction and one for the minus side. And of course, general 
relativity is the place where the switch has been set for these 
many years.

                          NIST Program Decline

    Mr. Baird. I asked that question, Dr. Ehlers and I, when we 
were on the Floor working on--or debating this bill. It was a 
nice debate, because there was no disagreement. In so many of 
our debates, one side is hammering the other, and it was nice 
to be able to talk about the kinds of things you just 
mentioned. The GPS, with so many people taking advantage of it, 
and it is just a magic box for so many of us, but somewhere 
that magic box was made by, down the line, the very kind of 
research that my good friend Mr. Wu was talking about, the 
fundamental, core, basic research that then leads to 
applications that literally save lives and give immense 
economic benefit.
    Dr. Hall, you said something a little troubling, and I 
wasn't sure I understood it. You said that there were some 
factors, which I didn't get clear, so I would like you and your 
colleagues to explain this. You said that--if I heard 
correctly, your program at Boulder had been just steadily going 
up and up and up and then somehow it is facing a decline. What 
are the factors contributing to that, if I heard it correctly? 
Or correct me if I didn't.
    Dr. Hall. I think the engineering in electronics, if it is 
in some field like millimeter waves, we keep that pretty much 
at home, because that is about high-resolution radars. If it is 
engineering about computer chips or the software that goes with 
it, there is an increasing tendency for that to be done in 
another country. And if you have trouble with your computer and 
call the help line, you will listen to some person that has 
excellent English but is from a different background. And it is 
totally marvelous that that can happen, but it happens with 
such a huge presence that kids who are sensitive to how things 
are changing, they see that the future is not going to be so 
easy for that. They would rather turn into biophysics or some 
place where you see it growing.
    Mr. Baird. I see. Part of the reason I asked that question, 
we have got a number of high-tech firms that--custom chip fabs 
and others in my own district, and one of the things that they 
raise, and so, too, have some of the bioresearches, that as a 
technology moves overseas and develops and you see some of the 
new developments in chip fabrication are moving overseas, the 
ability to get the hands-on experience with that here goes 
down. And so the analogy I would use is it is kind of like a 
bicycle pace line. When you are on a bicycle pace line, man, 
you can go fast. But once you lose that pace line, you never 
catch up. And what these researchers are telling me is as the 
chip fabrication and the next generation goes overseas, we are 
going to left at the starting blocks here, and to some extent, 
you never catch up because you don't get the real-world, hands-
on experience. Is that an issue for us?
    Dr. Hall. Oh, it certainly is. I couldn't agree more. The 
young people need to have access to the high-tech stuff, and 
some well-intentioned rules were put out to keep students from 
some potentially aggressive countries from joining into that 
research, and that is, in my humble opinion, extremely 
misguided for the reason that you are saying. We have got to 
have that high-tech stuff around, even in the universities.
    Mr. Baird. So they can tinker with it, get a feel for it.
    Dr. Hall. You have got to know. You learn by doing, that is 
what Carnegie said.
    Mr. Baird. You have to lean into the organism as--I can't 
remember her name, actually, now. It just escapes me. The woman 
who worked with corn. McClintock, yeah.
    Would your colleagues have any other comments on this?
    Dr. Phillips. Just to expand on the point that Jan was 
making before about working on a project for a long time and 
having the funding pulled, this is something that is really 
discouraging for young people. Now this isn't something that 
was under our control, but there were a number of projects 
being pursued at NIST that suffered from the kind of 
reorganization that occurred at NASA and some projects that the 
people had hoped to see fly may never fly. And that is 
discouraging for all of us, but I think it is particularly 
discouraging for young people. And I think that was--and I 
would certainly affirm what Jan said about the kind of effect 
that has on young people.
    Mr. Baird. They just don't want to risk the career 
investment knowing that at the end of 12 years, it might not 
get airborne and you might never get the results.
    Dr. Phillips. Yes.

                           Education (cont.)

    Mr. Baird. Dr. Cornell, anything to----
    Dr. Cornell. I just want to pick up on the learn-by-doing 
theme. That is just tremendously important. I think you see 
successful scientists, successful engineers, one thing that is 
consistent in their past is that, at one time or another, they 
had the opportunity to get their hands on the organism, whether 
it was a frog or a computer chip. And until you do, you can't 
really know. You don't really get that feeling. And so in terms 
of directions to go in education, I think anything we can do to 
get people as young as possible doing real stuff. There is no 
reason why college undergraduates, or even high school 
students, can't participate in the research enterprise, and 
that tends to be where the future stars come from is people who 
have had that kind of experience.
    Mr. Baird. Elsewhere in this Committee, we have had some 
very productive hearings on collaborative efforts between 
leading researchers and high school and college kids, so there 
are some wonderful things happening there.
    And I thank you for your time.
    Mr. Chairman, thank you for----
    Chairman Ehlers. The gentleman's time has expired, and I am 
pleased to recognize the gentleman from Colorado, Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Good morning to the panel.
    Mr. Chairman, when I was elected in 1998, I thought that my 
victory was the result of the climber and smart growth and 
environmental vote, and I later came to realize it was the 
science and high-tech vote that put me over the top and it was 
important to maintain building those relationships, and I am 
really proud that two of my constituents are here today, two 
Nobel Prize winners.
    I had hoped to be here earlier to have a chance to 
introduce the two gentlemen. I would ask unanimous consent that 
I could put my remarks in the record.
    Chairman Ehlers. Without objection, so ordered.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    First, I would like to welcome all of our witnesses here today.
    The awards and accolades the three of you have received are a 
testament to the quality of your research and the world-class 
scientists employed at NIST.
    I am proud to represent a district that has had four Nobel Prize 
winners in its past, two of whom are here today.
    Dr. Eric Cornell received his Ph.D. from MIT. He is currently a 
senior scientist at NIST and a Professor Adjunct at the University of 
Colorado.
    In 2001, Dr. Cornell and another constituent of mine, Dr. Carl 
Wieman, received the Nobel Prize in Physics for the achievement of 
Bose-Einstein condensation in dilute gases of alkali atoms.
    The Bose-Einstein condensation is a new state of matter, formed 
only when atoms are cooled to nearly absolute zero.
    I will let Dr. Cornell describe the details of his work, but I 
would like to highlight the effects of his research.
    The Bose-Einstein Condensate has had enormous impact in quantum 
computing and nanotechnology. It has allowed for the development of 
precision accelerometers, gravitometers, and gyroscopes used for remote 
sensing and navigation.
    As the Royal Swedish Academy of Sciences noted upon awarding the 
prize, the 2001 Nobel Laureates have caused atoms to ``sing in 
unison.''
    The creation of Bose-Einstein condensate is a ground-breaking 
accomplishment that has significantly affected the scientific 
community, its work, and its direction for years to come.
    Dr. Cornell, thank you for being here today.
    Dr. Jan Hall is NIST and the 2nd district's most recent Nobel Prize 
winner.
    Dr. Hall is a JILA fellow at the University of Colorado and a 
senior scientist with NIST Quantum Physics Division. He has received a 
series of awards in his distinguished career, including the Department 
of Commerce Gold Medal on three separate occasions.
    Dr. Hall won the Nobel Prize in 2005 for the development of a 
laser-based precision spectroscopy.
    Through his research, he worked to develop an instrument that can 
measure frequencies with an accuracy of fifteen digits.
    His work has wide ranging applications that can improve 
communication and animation technology, and potentially benefit 
navigation for spacecraft.
    I would like to welcome Dr. Hall.
    It is an honor to have all three of you here today. As we work to 
strengthen STEM education in this country and continue to invest in 
R&D, your experiences and insight is particularly helpful to this 
committee.
    Thank you again for joining us.

                             K-12 Education

    Mr. Udall. And Dr. Phillips, it is also a great honor to 
have you here today.
    If I might, I would like to open up the question of how we 
are doing in the K-12 area and give each of you an opportunity 
to speak to your experiences there, what you see. Are the 
reports accurate that we are falling behind? And probably most 
importantly, what would you recommend that we should do to 
maintain our, if not a preeminence, certainly our strength in 
this very, very important area? Maybe we will just start with 
Dr. Hall and move across.
    Dr. Hall. Okay. So this is gorilla number seven.
    Let me say how it seems to me.
    I think we count the jobs and that shows up in the news, 
but we don't count the income that comes with the jobs. I think 
that every one of us knows that the new jobs are created with a 
lower salary. That means that family income has gone down. It 
finally means that mom has to work. And then that means people 
are tired. They can't guide their kids quite as well. Then the 
kids come to school, and they don't perform quite as well. Then 
we decide that somehow it is the school's failure or it is a 
system failure. And this disaster is really a bad thing for 
competitiveness, because the first cost of this was what was 
considered by business leaders that put some work that paid 
high in the United States making cars or, I don't know, 
whatever, and then it went to another country. In that loop, 
the United States was saving money. But in a system picture, we 
have destroyed ourselves by this, because the families are 
under such stress. Their kids can't achieve. They can't even 
expect to be at the same level as their dad was. And this 
really makes me upset. And the only way to climb out of that 
that I have any understanding about is education. And if we 
lose them in this critical time when they are looking at all 
other kinds of ideas, maybe they could be a rock star and make 
some traction with the seventh grade kids by asking them 
whether they would rather be a Nobel Prize winner or a rock 
star, and they say, ``It is impossible to be a Nobel Prize 
winner,'' but actually the number of Nobel Prize winners in the 
United States and rock stars is only two times smaller. So I 
don't know what to say, but it is about guiding the next 
generation. Some other civilizations really do that in a good 
way, and we are not.
    Mr. Udall. That is very insightful.
    Mr. Baird. We consider these gentlemen rock stars on this 
Committee.
    Mr. Udall. Let the record show.
    Dr. Cornell.
    Dr. Cornell. I have to tell you that I don't know very much 
about K-12 education. I know that the conventional wisdom is 
that somehow American K-12 education is failing or has failed. 
And usually the evidence that is brought to this has to do 
with, ``Well, compare our test scores on math against scores 
elsewhere in Asia or Europe or performance on international 
math Olympiads,'' and what have you. And I guess I take a 
somewhat contrarian point of view about that. I think if you 
look at this country, we have an amazingly high success rate of 
economic dynamism, of entrepreneurialism, of creativity both in 
high tech and in business, and my personal suspicion is that, 
at some point, the American education system should get to take 
some credit for that. I think maybe, just maybe, we are maybe 
turning out students who don't do as well on tests, but I don't 
really care about that. I know that when I go to hire a young 
graduate student to work in my lab, I don't put a lot of weight 
on how well he or she did on the standardized tests. I look to 
see a little bit more about their emotional maturity, about 
their real-world experience. And oftentimes, those are people I 
have hired who I have had the best luck with, who, frankly, 
have made me famous by being so good working in my labs. They 
are people who wouldn't necessarily have appeared to be the 
stars of an education system.
    So I know that we all think that our education system is a 
disaster, but I think that there is something going on there 
that is right, and I hope that we don't break that in trying to 
fix the rest of it.
    Mr. Udall. Mr. Chairman, is there enough time for Dr. 
Phillips to respond?
    Chairman Ehlers. Yes, we will allow you a few extra 
seconds.
    Mr. Udall. Thank you.
    Dr. Phillips. Well, everyone agrees that our graduate 
education system in the United States is the best in the world. 
And our undergraduate education isn't so bad. And everybody 
dumps on the K-12. And yeah, so what do I know? I do spend a 
lot of time in schools. I make presentations in kindergartens 
and in middle schools and in high schools. And one of the 
things that I see is that as you progress from the grade school 
up through the high school that you see, in grade school, the 
kids are absolutely marvelously curious about everything. And 
as you progress to the later grades, that curiosity is squeezed 
out of an awful lot of them. And the ones that it is not 
squeezed out of, we end up seeing coming out the other end as 
scientists. And we end up getting them, as Eric said, in our 
labs, and they make us famous. I would really love it if we 
could somehow encourage the retention of that curiosity. And I 
really don't know how it is to be done, but it is something 
that I have noticed.
    And I also want to echo what Eric said about that there are 
a lot of good things being done in our schools. I was, just the 
other day, at a teachers' workshop that I was participating in. 
And one of the teachers from a rural area of Tennessee told me 
that in her school, they had not taught physics for the last 
six years because they have had requirements put on them that 
all of their physics teachers had to be qualified. And they 
didn't have any qualified physics teachers, so their solution--
the only solution they had was they had to stop teaching 
physics.
    And so sometimes there are unintended consequences of 
attempts to try to improve our educational programs. And she 
was trying to reinstitute a physics program. So gee, you know, 
I don't know what to do, but I sure hope we do something.
    Chairman Ehlers. The gentleman's time has expired.
    All right. We will get to a second round of questions, and 
I have to do a little business here, because this committee has 
jurisdiction over NIST. So I would like to ask your comments 
about NIST.

                      NIST's Merits and Facilities

    First, in a generic sense, obviously NIST is doing 
something right to produce three Nobel Prize winners in less 
than 10 years. I am interested in your ideas about what NIST 
has going that contributes to that and that other science 
agencies or research entities could learn from that example.
    But I am also interested in something else, the condition 
of NIST buildings and facilities. We have heard a good deal 
about some of the problems there, and I am curious whether that 
has impacted your work or not or the work within your division 
of NIST or any other aspect of NIST facilities. Particularly, I 
know at Boulder there have been some problems, not at JILA but 
at the NIST site.
    So I would appreciate your comments on those two things. 
What is good about NIST and the atmosphere that it produces 
people like you? And secondly, what problems are they having 
now of a physical nature? And it doesn't have to be a building. 
It could also, as Jan pointed out, you know, the simple things 
of life, such as the tools you need. That is absolutely 
essential, too.
    Let us go the other way around this time. Jan, Dr. Hall, 
would you start first?
    Dr. Hall. NIST is a place where adverse opinions can be 
tolerated and encouraged and the system is managed 
operationally by consensus. There is someone who is in charge, 
but I think the program is, in fact, built up out of 
suggestions that people make. There is a wonderful contest to 
get a little extra money for your budget once a year from the 
director or from some intermediate levels of management. And in 
no small measure, the fact that there are three of us here from 
one division of one laboratory of NIST is due to just one 
person that you have already recognized, Dr. Gebbie. She takes 
huge heat on our behalf on requests.
    As far as the facilities are concerned, I was so 
discouraged at one point that I had looked seriously about 
going to another place where they are going to offer a new lab 
space that didn't have so much vibration. And the response to--
and you never learn how to do these negotiations of life 
things. So I was ready to just leave, because it is, obviously, 
impossible. But when that finally got discussed around JILA, 
then, ``Oh, maybe we could get money to make a new building.'' 
So I was glad to be in the basement where nobody wanted to be 
and we put their additions up where there are windows. So I 
don't know of facilities as being a principle limitation in the 
part that I do, but in fact, the environment is a limitation on 
all of the experiments when you push hard enough. The 
temperature control, for example, where I am is not good 
enough. I don't have any intelligent remark about----
    Chairman Ehlers. I think both of those were intelligent.
    Dr. Cornell.
    Dr. Cornell. I know a little bit about science. I know very 
little bit about science management. So I don't know that I 
can--I don't know what the secret of the success is. One thing 
I have noticed over the years is that a dangerous thing that 
can happen to an organization is to be a victim of its own 
success. Sometimes you do very well, and then you are 
enormously rewarded. And then as a consequence, you grow very 
rapidly. And it is very hard to grow very rapidly. It is very 
hard for our organization to hire a vast number of people very 
rapidly and to get the very best people under those 
circumstances. And I think NIST has benefited from growing over 
the years but not growing, sort of in doubling in six months. I 
think doubling in six months is probably not a good recipe for 
an organization 10 years down the line. So that may have been a 
pitfall that NIST avoided. I am sure Katharine is throwing 
daggers in my back if it suggests that NIST doesn't need more 
resources. Of course we do, but maybe our budget shouldn't 
double overnight.
    Other than that, I don't really know. I don't know 
Katharine's secret. I don't know how this works. But I know a 
good thing when I see it, and I am certainly very happy to be 
where I am.
    Chairman Ehlers. I would suggest since you are a government 
agency, you don't have to worry about doubling overnight.
    Dr. Phillips.
    Dr. Phillips. Well, I think NIST is absolutely fantastic. 
And as I said in my testimony, people ask me, you know, ``Why 
are you still at NIST? You could earn a whole lot more money 
someplace else.'' And I am sure that my colleagues have gotten 
the same questions. And the answer is it is just such a great 
place to be to do research. Katharine is fond of saying that 
she thinks it is her job to hire the best people and to give 
them the resources they need to do the best work. Now that is a 
wonderful attitude for an administrator, and it is not the kind 
of attitude of every administrator that every research 
institution has. I brag about our administration, our director 
and my laboratory director to other people from other 
institutes, and they are jealous about the way that we are run, 
because we are run the way they wish they were run. So it is 
fantastic.
    We have a new building. You asked about facilities. We have 
the Advanced Measurement Laboratory complex at NIST. And we 
moved from a much older laboratory into that new laboratory, 
which has a better vibration control, better temperature 
control, better humidity control, better air quality in terms 
of dust than the old laboratories did. And boy, we lost a lot 
of time moving all of our stuff and getting everything going 
again, but boy, is it working great now. And so it has made a 
big difference in just our day-to-day ability to do our job. We 
just don't have to tweak things up as often as we do, and we 
can spend more time doing the next greatest thing.
    Another thing that is fantastic about NIST is that we bring 
in a lot of young people, especially as post-docs. In fact, two 
of the post-docs that I am privileged to work with every day 
are here in the hearing. Ben Brown and Phil Johnson are here. 
And these guys have come as part of our post-doc program, the 
NRC post-doc program. Ben Brown is part of that. And Phil came 
on an intelligence community post-doc. And we get these 
wonderful young people who are just full of energy and bring 
all of these new ideas. And they get to work with some of the 
best equipment around for a couple of years and go out and have 
wonderful careers but bring to us all of this energy and new 
ideas. And it is just exciting to be where we are.
    Chairman Ehlers. Well, thank you. I am glad to hear those 
comments. And I was a part-time administrator in a research 
group for a number of years, and I regarded my job as primarily 
to--the scientists from the so-called administrators. The best 
way to administer science in my book is to find smart people, 
give them good resources and ample funds, and not have them 
worry about any other administrative deals.
    And I am pleased to hear that NIST is going in that 
direction. It has not always been that way.
    I would like to ask if the gentleman from Oregon, Mr. Wu, 
has any other questions.
    Mr. Wu. Yes, Mr. Chairman. Thank you.
    Chairman Ehlers. Go ahead.

                       American Research Position

    Mr. Wu. Two different sets of questions.
    The first, very briefly, I'm positively surprised, I get 
the impression from the testimony of all three witnesses that 
you all are feeling relatively good about the American position 
in basic research at the present moment. Is that an accurate 
characterization?
    Dr. Phillips. Well, not entirely, from my point of view, at 
least. So let me say where I see problems.
    One is in industrial research. And Jan Hall already alluded 
to this. When I was a young scientist, you had Bell Telephone 
Laboratories. Bell Labs was iconic. They were the best research 
laboratory in the world. But it wasn't just them. There was IBM 
Labs. There was GE, General Motors, Xerox, Ford. You know. 
There was a whole panoply of high-powered industrial research 
laboratories. That tradition of industrial research that is 
focused on or that has a large component of basic research has 
almost disappeared from the American landscape. And that is a 
crying shame. Bell Labs still exists, but it is a pale shadow 
of its former self. And the other labs have either completely 
gone out of business or are also just shadows of their former 
selves. There is a huge basic research effort that has been 
lost, so Jan was mentioning ways in which one might encourage 
that to come back. You know, I am not an economist. I don't 
know whether those kinds of ways are going to really work. The 
problem is the American industry, American business, in 
general, focuses on the quarterly bottom line. And research 
pays off after 10 or 20 years. And so you have this disconnect 
between the long view. Okay, on your wall, this wonderful 
passage from Proverbs, ``Where there is no vision, the people 
perish.'' And what I am afraid of is that in American industry, 
with respect to research, there is no vision. Everything is 
focused on the short-term. Now at NIST, I am happy to say that 
we have a very strong long-term vision, and that is why I am 
happy about what is going on at NIST. I am not happy about what 
is going on in industry, and I think that the only way to 
compensate for that is for government to supply more resources 
to the agencies that do have the long-term vision. I mean, it 
is not just NIST, but lots of other agencies, universities, the 
NSF obviously takes a long-term vision. I am also a little bit 
worried about the way in which this plays out in the military 
agencies, because you have the peace dividend. Everybody 
expects military budgets to go down, and when you still have to 
fight a war, you still have to supply--you still have to worry 
about national security. What suffers? The research budgets. 
But the research budgets are your seed corn. And it is not just 
the military effort that is going to suffer, if you don't do 
long-term basic research. That long-term basic research that 
has been done in the military traditionally has had a huge 
impact on the civilian economy. ONR, historically, was an 
agency out of which you could expect just marvelous basic 
research results. This was great for the military. It produced 
things like atomic clocks and the GPS and all of that, but it 
was great for the civilian economy as well. And to a certain 
extent, we are seeing that backing off because of the way the 
priorities work.

            Higher Education and Jobs in Industrial Research

    Mr. Wu. Well, without adjusting the DOD part of this, it 
seems to me that some of the great private research 
organizations were dependent on a market position and a market 
dominance and cycle times that don't exist anymore. Cycle times 
are much faster, and the Bell Labs were dependent upon a 
monopoly. And that has gone away. And it is an interesting set 
of questions about how we are going to replace that.
    Well, I want to bring this back around to some industrial--
I don't want to--just some concerns about our industrial base. 
I mean, the scientists hark. The Chairman said that earlier. 
Three credits at an engineering course, same amount of work as 
a five-credit course somewhere else. And it is hard to do in 
the first place, but people get drawn into it, at least, with 
the prospect of jobs. And only a certain percentage of those 
who graduate with a bachelor of science degrees will go on to 
get graduate degrees and do the kinds of cutting-edge research 
that you all have been privileged to do. As you know, with the 
loss of a certain amount of industrial base, if people are not 
seeing the jobs, if young people are not seeing the jobs to 
draw them through, is there a concern on your part that we are 
not getting the base of the pyramid, if you will, drawn into 
these very difficult scientific fields so that, you know, a 
smaller percentage will go on to graduate school and then at 
the very pinnacle, some people will someday be like you here 
with a Nobel Prize in their hands.
    Dr. Hall. I would like to speak in favor of a safety net 
for people that have invested in themselves, but that was what 
we had. There was a diversity of different kinds of places that 
a person could go. And some changes in the family circumstance 
may mean that a really promising guy leaves out of the just--
graduate school opportunity and goes to work or something. And 
if he is working in a company that uses his knowledge, that is 
fantastic. But somehow, we are just at the edge of letting that 
opportunity go. I think your pyramid illustration is exactly 
the right way to think about that. We should have a base of 
people that know about the basics of science in the most 
fundamental way, and that should be the whole voting public. 
And then the next level are people that know something in the 
collegiate level. One could have a country that would have 
stability against perturbations. Now we are extremely fine-
tuned economically for a particular place, and the robustness 
of this system is, in my opinion, absolutely up for grabs. If 
something anomalous happened now, we might not have enough 
engineers of some kind, hydraulics engineers or some other 
skill, because there is nobody that wants to go there, because 
there is no parking place for them in the meantime.
    Chairman Ehlers. The gentleman's time has expired.
    Does the gentleman from Colorado have any further 
questions?
    Mr. Udall. I do, Mr. Chairman.
    And before I direct this question to the panel, I want to 
thank the Chairman for his commitment to NIST. The two 
residents of Boulder here, I think, knowing that Chairman 
Ehlers served a couple of stints at JILA, and he has taken the 
time to come out and see the NIST facility. And we had a couple 
of rough spots, but I know we are in the sense of upgrading the 
facility, Dr. Hall, Dr. Cornell, but I know we are turning the 
corner, I hope.

                   American Innovation and Education

    The comments you made, Dr. Cornell, about our culture and 
perhaps our education system promoting more innovation than we 
realize are the ones I would like to follow up on.
    There have been a couple of pieces recently written about 
the Chinese and the Indians that, of course--who are part of 
the focus here. And you hear the numbers of engineers and some 
that they are graduating, but these stories focus on the fact 
that the Indians and the Chinese are looking to create a more 
innovative attitude among their citizens, that they have their 
own blind spots, if you will. They have their own cultural 
challenges. Dr. Cornell, would you be willing to just talk a 
little bit about your sense of can you teach innovation. What 
do we do with promoting more methods and approaches? I know Dr. 
Wyman isn't here with us, but he is with us in spirit, of 
course. I know he has dedicated a small--a large part of his 
time in this pursuit as well, and if there is time, I would 
like to hear from Dr. Hall and Dr. Phillips on this question.
    Dr. Cornell. Well, it is obviously a tremendously important 
question, and I certainly feel pretty much over my depth here 
in that I do quite a bit of teaching, but it is mostly to 
people I consider young, but they are in their 20s. The 
people--the younger people I teach, there is one who is 10 and 
one who is seven, but it is kind of more one-on-one in the 
house. And I do think one learns by doing, and, therefore, I 
think, to the extent that the K-12 experience can enhance the 
notion--the components of actually trying to do things. It is 
very, very important. I am not saying ignore the basic skills, 
but I sometimes think in a mad rush to sort of prevent us 
from--you know, make sure we continue to--you know, enhancing 
all of the basic skills, I think you can sort of cut out 
whatever it was, the magic that somehow was there and although 
not particularly well recognized in the American education 
system, something had to have been right. And I worry that in 
sort of responding to the threat of the verging Chinese effort 
or the verging Indian effort or something like that, that if we 
just try and sort of blindly follow their approach, we may be 
moving away from what has worked for us well in the past. But 
with that said, I don't know what it is exactly. And I have to 
say that I am watching my children, my two girls, go through 
the Boulder Valley School District system, and I have been 
fairly impressed. I think they strike a pretty good balance 
between reading, writing, arithmetic and somehow instilling a 
notion that yeah, there is actual real things that you can do 
and learn about in the real world.
    Mr. Udall. Dr. Hall, would you care to comment?
    Dr. Hall. Again, I come back to the family as the base for 
this. And it seems to me that with the evolution of style at 
home that I would prefer a big plasma screen to talking with my 
kids at night, this is not a good sign for the future. And the 
part which worked incredibly well was that we weren't very 
wealthy in the early time. We were in working-class place. And 
kids would come by on Saturday with broken tricycles, and I 
would fix everybody's tricycles. And then we would get into a 
discussion about how come the wheel keeps spinning so long on 
some of them and not so much on the others and a lot of what is 
ultimately science stuff is communicated. You have got to know 
how stuff works. And some people think that the cars, you know, 
you just get in and go and the engine light is on, ``Well, 
okay. That is the next guy's problem.'' So anyway, I think just 
adults that care about kids is how it happens. And it is the 
best. Everyone who is going to have to take a part in it, 
because a lot of us have brought kids in.
    Mr. Udall. Thank you.
    Dr. Phillips.
    Dr. Phillips. Well, let me venture a guess as to what is 
one reason why the United States has been so successful in 
areas of innovation where some other countries haven't. I think 
it is our ``can-do'' spirit. I was just listening to somebody 
from Europe the other day, and he said, ``The big difference in 
the United States is when you have a problem, in the United 
States, people say let us figure out how to do it. And other 
places, people will tell you all of the reasons why you can't 
do it.'' I think this is part of our national character. And 
that kind of thing can change. Other countries can get it. We 
could lose it. What we need to do is make sure that we feed it. 
It is one of our greatest resources, that idea that we are 
going to make it work. And I think that that is one of the 
things that has really made the United States stand out from 
everybody else.
    Mr. Udall. Thank you, Dr. Phillips.
    Mr. Chairman, if you might just indulge me, I think the 
secret of the success of these three gentlemen and the future 
success of the country is on display here, because on a number 
of occasions, each one of you said you didn't know but you 
exhibited a curiosity about finding out. And that is the 
characteristic or the characteristics that I think we want to 
continue to encourage and that you all have done such a 
phenomenal job of encouraging. So again, it is a real honor to 
have you here and particularly to have two of my constituents 
here. You really are the pride of America, not just the pride 
of Boulder, Colorado. And Congressman Baird put it right, too. 
You are rock stars, and we just--we need to do a better job 
promoting what you all have done.
    So thank you for being here.
    Chairman Ehlers. The gentleman's time has expired. And 
might I say they are probably successful because two out of the 
three live in Boulder, Colorado. They get inspired by all of 
the beautiful mountains.

                           Career Inspiration

    We will have a short third round of questions. And just a 
quick one from each of you and just--because I am going to make 
a few comments about the educational system.
    What inspired each of you to go into science? And we will 
start with you, Bill, Dr. Phillips.
    Dr. Phillips. Well, in a sense, it is a little hard to 
remember, because I have been interested in science for as long 
as I can remember. But it certainly echoes what Jan has been 
saying about family. My parents, who had nothing to do with 
science, they were social workers, they fed that fascination. 
They got me a microscope. They got me a chemistry set, an 
erector set. They let me set up experiments in the basement, 
even though they hadn't any idea what I was doing. And so from 
the earliest times, I was interested, and I had that encouraged 
in the family, and boy, that is so important.
    Chairman Ehlers. Dr. Cornell. Microphone.
    Dr. Cornell. Oftentimes when it is bedtime, children will 
have stories read to them before they go to sleep. When I was a 
kid, my father, who was an engineer, didn't feel like he needed 
to read me a story, because I already knew how to read, but he 
would come in and sit on my bed and say, ``Okay. It is bedtime. 
While you go to sleep, I want you to think about this 
problem.'' And then it would be something like, ``Well, you 
have got a truck full of bees and they can't get over the 
bridge. If you bang on the truck and the bees all fly, will the 
truck be lighter and can it fly? Can it go over the bridge 
without crashing?'' or some kind of classic physics brain 
teaser like this. So I used to go to sleep thinking about these 
things.
    Chairman Ehlers. So those Zs above your head were really 
bees flying.
    Dr. Hall.
    Dr. Hall. I think my father and mother did a very helpful 
job for me. I was surprised to find in my father's stuff one 
time that he had a jar with this much mercury in it, and that 
was pretty fun to play with. Another one was sulfuric acid, 
which was so strong and thick that it would just hardly slosh 
around. So it finally became clear from the state of my clothes 
that I was into dad's stuff, all of these holes in it. And 
there was no negative feedback about that. ``Oh, well, I am 
glad that you found out.'' And so it is, again, this 
intergenerational contact and having good stuff around. I never 
had a microscope, though, so I am jealous about that, Bill.
    Chairman Ehlers. I must confess to jealousy, too. I was 
interested in science, and I will give my short version.
    I was interested as a child, but never in my wildest did I 
think I could become a scientist. I had never met a scientist. 
I didn't know a scientist. And it is really amusing. Today, 
when I speak to scientists, groups of scientists, and 
engineers, I encourage them to go to elementary schools and 
just ask if you can speak to the kids about science and 
engineering. My experience was, having never met a scientist, 
as a junior in high school, I went into one of the old-
fashioned diners with a counter and the stools. I sat down to 
eat my hamburger, and a gentleman came and sat down next to me, 
and we started talking. And he was a mechanical engineer from 
Ford Motor Company. And I enjoyed working on my car. I did all 
of my own maintenance. And he talked about what he did at Ford 
designing cars. And so a year and a half later, when I went off 
to college, I went through registration, and they said, ``What 
major are you declaring?'' I had no idea what they meant, but I 
said, ``What is that?'' And they said, ``Well, you have to 
declare a major. And what do you think you are going to 
study?'' I said, ``Mechanical engineering,'' on the basis of a 
15-minute conversation with a total stranger. So that is--my 
story is a little different from yours, but everyone has their 
own story.

      K-12 Education, Informed Voters, and the Federal Government

    What I did want to just comment on is this whole issue of 
K-12 education. After I wrote this book, and by the way, I 
appreciate your comments, because in this book, I identified 
the responsibility of the Federal Government to take over basic 
research, because I predicted that Bell Labs, IBM Labs, all of 
the others, would go out, for a couple of reasons. First of 
all, they--some of them were monopolies. Some, such as IBM, 
were monopolies, in fact. But you could see that was going to 
end. But a bigger reason was the increase in globalization. And 
they knew that other businesses in other countries would not 
support these labs, therefore, our companies would be at a 
disadvantage and would have to give it up just to remain 
competitive. And the other factor was the increasing obsession 
of Americans was to have good results every quarter, and you 
cannot conduct scientific research on a quarterly basis. It has 
to be on a decade-long basis rather than quarterly. And I 
feared that all of these industrial labs would die simply 
because they could not justify themselves. So on the base of 
that, I predicted the Federal Government would have to increase 
their efforts in basic research, otherwise it would go away.
    And in terms of education, I think it is absolutely 
essential that we all join in working on the K-12 system, not 
that it is horrible, not that it is broken, but we have to 
somehow help the students understand more about science, learn 
more about science, consider it as a career. I have worked 
extensively with elementary schools, and I never criticize the 
teachers, because I have found them to be wonderful, wonderful 
people. But most of them are afraid to teach science and math, 
because they themselves haven't learned it. And no one likes to 
display their ignorance publicly to students. And I think the 
best thing the Federal Government can do is offer training 
programs, summer seminars, paid summer seminars for teachers to 
help them gain the knowledge and the confidence they need in 
the classroom, and above all, the ability to excite students.
    I have--and I am not trying to say that every student 
should become a scientist. That is the wrong way to go. But we 
have to face it that in 10 or 15 years, the jobs of the future 
will require an understanding of the basic principles of math 
and science. We are going to lose a lot of industrial jobs, and 
those that remain, will have a high level of standards. For 
example, my district, which has heavy manufacturing, when I 
tour a factory, it is no longer hundreds of men standing in a 
row operating a lathe and turning a screw. It is one $750,000 
milling machine, computer-operated with one operator who earns 
$80,000 a year because he understands math and science and 
knows how to program it to make the products. The world is 
changing, and the jobs of the future are going to require 
everyone to know more about math and science.
    I also appreciated Dr. Hall's comment about voters. We have 
to educate kids in math and science, because the voters and 
consumers of the future are going to need it, whether to read 
labels of contents on vitamin bottles, or any other medication, 
or voting on environmental issues that are put on the ballot, 
as happens sometimes in Colorado, and certainly in California 
every year. I think it is essential that we prepare a 
generation of scientists--pardon me, of citizens who know 
enough about science to make reasonable judgments. But also, I 
believe our economic and national security rests on generating 
students who understand these issues and can apply them in the 
real world today. I would love to see more scientists and 
engineers in the Congress, not just because I am a scientist, 
but just because we bring a unique set of talents, which I 
think are very useful in the long-term.
    So I hope that, working together, we can all accomplish 
that. And I appreciate what Carol Wyman is doing in devoting 
himself to improving education. He is doing it at the 
undergraduate level, but many others at the elementary and 
secondary. We have to all work together on that.
    I have one last comment. I advocated very strongly in here 
that the Federal Government could encourage industrial research 
through a strong research and development tax cut policy. We, 
in fact, as part of what we are doing right now, we are 
dramatically increasing that. And the only caveat I have of 
that is it is tending to turn into a development tax credit, 
not a research tax credit. There is still not the basic 
research there, and I think we are--we will have to continue to 
depend on the government to do that. And what you said about 
the American can-do attitude is absolutely right on. Creativity 
is in our genes, and I trace it back to the agriculture that 
people had to do when they first got here. They had to develop 
new methods of agriculture. And there is just that creative 
spirit that has somehow--on our early immigrants that has 
carried through. For thousands of years, people have plowed 
fields with a stick and an ox, but John Deere came to America 
and said, ``I can build a steel plow that will work a lot 
better.'' And you just follow that progression all of the way 
through and we have a rich tradition of creativity and a can-do 
attitude, so that paid off.
    You can tell from my diatribe that I am the son of a 
pastor, and that ends my sermon, but I am pleased to recognize 
the gentleman from Oregon for his last question.

                   American Ingenuity and Investment

    Mr. Wu. Thank you very much, Mr. Chairman. And I thank the 
three witnesses and the Chairman for sharing your stories. We 
frequently build policy around statistics, hopefully build good 
policy around good statistics and good information, but 
ultimately, I think the policies have to be sold with a story. 
And people from all over, Wendell Holmes to Ronald Reagan, 
understood that.
    Dr. Hall, I just wanted to let you know that I have 
considered the issue you raised about long-term investment for 
quite some time preceding the time that I came here to 
Congress. And one of the efforts that I have been pushing, thus 
far with little traction but hope springs eternal, is to change 
some of our capitol gains tax rates and the hold period. And 
the numbers are negotiable, but what we are currently proposing 
is new investments, a five-year hold, five percent taxation, 
and you know, this comes from my background as a technology 
lawyer in helping small companies start. I think we might need 
a different model to given incentives to larger organizations 
to make those long-term investments. But this really does focus 
on taking real risk and holding for a long period of time, 
because a 12-month hold period, now that is not really--that is 
not a long-term capitol gains. But whether that is the right--
one of the right policy prescriptions or not, you know, time 
will tell. You all have clearly pointed out a need for some 
role of public research, whether it is funded by the private 
sector with a lot of public spin-offs or whether the public 
research is funded by a public entity, the kinds of research 
that were done by Bell Labs and Xerox and some other entities, 
that is a clearly identified lacuna in our system right now and 
a challenge for us.
    I have a can-do attitude. I think that we can successfully 
address this. We live in challenging times. There is a war 
going on. There is a very large deficit. But these are hardly 
the darkest of times. Oh, about 140 years ago, you could hear 
gunfire from these buildings, or the building across the 
street, the U.S. Capitol. They were wounded from the Civil War 
in spaces in the U.S. Capitol, and yet during those years, the 
bipartisan press to the future, President Lincoln and the 
Congress completed the Capitol dome with a sense that this was 
going to be a great Nation and needed a capitol to match it, 
but, even more importantly, passed legislation to complete the 
Transcontinental Railroad, passed the Land Grant College Act, 
and passed the Homestead Act in settling the west. And prior 
generations have met these challenges, and I am grateful to 
hear some of your confidence about that, also, and look forward 
to a continuing dialogue.
    And thank you very much, Mr. Chairman.
    I yield back to you, Mr. Udall.
    Chairman Ehlers. Do you have any further questions?
    Mr. Udall. I just have a comment and a very brief question.
    I can't hope to surpass the eloquence of the two gentlemen 
at the head of the dais here, but I did want to ask, Dr. 
Cornell, what is the answer to that question your father asked 
you. Is the truck lighter if all of the bees are airborne?
    Dr. Cornell. If you have a panel truck that is all sealed 
up and you have got, you know, 1,000 pounds of bees in the 
back, and you can't get over--and you have got the 1,000 pounds 
of bees in your 2,000-pound truck and that adds up to 3,000, 
which is more than the 2,500-pound weight limit on the bridge, 
no, it doesn't actually help to get the bees swarming around in 
the back of the truck, because they are--the air that they 
press down with their wings presses down on the bottom of the 
truck, and so you can't win. You can't even break even. That is 
in the laws of physics, and it applies to bees as much as 
anything.
    Mr. Udall. Thank you.
    Chairman Ehlers. So to bee or not to bee, that is the 
question.
    Just one last comment. I was talking about the necessity 
for well-informed citizens. It just occurred to me, the best 
example of that would be if the citizens of this nation 
understood the laws of thermodynamics, we would not currently 
have an energy problem. And that is the clearest example I can 
give.
    We are delighted with the panel. Thank you very much for 
being here. It has been highly educational, and it has been 
very, very helpful to us in considering the future of NIST and 
the future of fundamental research in this nation.
    I encourage you to continue your interest in science 
policy. I encourage you to tell your colleagues throughout the 
Nation also to remain interested in that, because it is 
fundamental to have that framework so that we can make sure 
that you and other scientists get the support that they need to 
continue the research that has to be done. And that will only 
help our nation be stronger and more successful.
    So I thank you very much for being here and for your 
contributions.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Committee may ask of the witnesses. 
Without objection, so ordered.
    And the hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]

</pre></body></html>
